<html>
<title> - VOTING RIGHTS AND ELECTION ADMINISTRATION IN FLORIDA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


          VOTING RIGHTS AND ELECTION ADMINISTRATION IN FLORIDA

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ELECTIONS

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 6, 2019

                               __________

      Printed for the use of the Committee on House Administration

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Available on the Internet:
         https://www.gpoinfo.gov/committee/house-administration
                            
                            
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-118                       WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------                                 
                            
                            C O N T E N T S

                              ----------                              

                              MAY 6, 2019

                                                                   Page
Voting Rights and Election Administration in Florida.............     1

                           OPENING STATEMENTS

Chairwoman Marcia L. Fudge.......................................     1
    Prepared statement of Chairwoman Fudge.......................     4
Hon. Barry Loudermilk............................................     6
    Prepared statement of Hon. Loudermilk........................     8

                               WITNESSES

Anjenys Gonzalez-Eilert, Executive Director, Common Cause Florida    15
    Prepared statement of Ms. Gonzalez-Eilert....................    17
Andrew Gillum, Chair, Forward Florida............................    28
    Prepared statement of Mr. Gillum.............................    30
Nancy Batista, Florida State Director, Mi Familia Vota...........    34
    Prepared statement of Ms. Batista............................    36
Marleine Bastien, Founder and Executive Director, FANM Ayisyen 
  Nan Miymi, Inc.................................................    40
    Prepared statement of Ms. Bastien............................    42
Juan Cartagena, President and Senior Counsel, LatinoJustice 
  PRLDEF.........................................................    73
    Prepared statement of Mr. Cartagena..........................    76
Karen Wilkerson, League of Women Voters of Florida...............    82
    Prepared statement of Ms. Wilkerson..........................    84
Judith Browne Dianis, Executive Director; Advancement Project....    86
    Prepared statement of Ms. Dianis.............................    88
Logan Churchwell, Communication and Research Director, Public 
  Interest Legal Foundation......................................    94
    Prepared statement of Mr. Churchwell.........................    96

                       SUBMISSIONS FOR THE RECORD

Southern Poverty Law Center, submission..........................   129
New Florida Majority-Education Fund, submission..................   133
Laura Guren Rodriguez, Co-Chair State Policy Advocate, National 
  Council of Jewish Women, submission............................   139
Advancement Project, Democracy Rising: The End of Florida's 
  History of Felony Disenfranchisement and Launch of a New Age of 
  Empowerment, Submission........................................   141

 
          VOTING RIGHTS AND ELECTION ADMINISTRATION IN FLORIDA

                              ----------                              


                          MONDAY, MAY 6, 2019

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., at 
115 South Andrews Avenue, Fort Lauderdale, Florida, Hon. Marcia 
L. Fudge (Chair of the Subcommittee) presiding.
    Present: Representatives Fudge, Butterfield, Aguilar, and 
Loudermilk.
    Also Present: Representatives Hastings, Deutch, Wasserman 
Schultz, and Wilson.
    Staff Present: Peter Whippy, Communications Director; 
Mannal Haddad, Press Secretary; Eddie Flaherty, Chief Clerk; 
Sean Jones, Legislative Clerk; Khalil Abboud, Deputy Staff 
Director; Sarah Nasta, Counsel--Elections; David Tucker, 
Parliamentarian; Vivian Piereschi, Ms. Wasserman Schultz's 
District Director; Wendi Lipsich, Mr. Deutch's District 
Director; Joyce Postell, Ms. Wilson's District Director; 
Patricia Williams, Mr. Hastings' District Director; Courtney 
Parella, Minority Communications Director; Jesse Roberts, 
Minority Counsel; Cole Felder, Minority General Counsel; and 
Joy Yunji-Lee, Minority Counsel.
    Chairwoman Fudge. The Subcommittee on Elections of the 
Committee on House Administration will come to order.
    I would like to thank all the Members of the Subcommittee 
and my colleagues from the House who are here today as well as 
our witnesses and those in the audience for being with us this 
morning.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and that any written 
statements be made part of the record.
    Hearing no objection, so ordered.
    I ask unanimous consent that Members be invited to sit on 
the dais for the Subcommittee hearing. They are, in order: Mr. 
Deutch, Ms. Wasserman Schultz, Mr. Hastings, Ms. Wilson.
    Hearing no objection, so ordered.
    I especially want to thank my good friend and distinguished 
colleague, Mr. Hastings, for welcoming us so warmly to his 
district as we continue the important work we do as a 
Subcommittee.
    We are here to examine the state of voting rights and 
election administration in Florida. As this Subcommittee 
continues to travel the country, I can think of no better place 
than here in Florida, a State that is no stranger to having its 
elections become the focus of national attention.
    The right to vote is fundamental to a strong, thriving 
democracy, and yet, in our travels around the country and here 
in Florida, we see repeated attempts to suppress the vote. 
Florida has one of the most repressive disenfranchisement 
policies in the country and has made it extremely difficult for 
those convicted of a felony to have the voting rights restored. 
Between 2010 and 2016, the number of disenfranchised Floridians 
grew from 150,000 to approximately 1.68 million.
    On November 6, 2018, a resounding 65 percent of Florida 
voters cast their ballots in support of Amendment 4, a 
constitutional amendment that would restore voting rights to 
the over 1 million Floridians who have been disenfranchised. It 
was a watershed moment for civil rights and for the dignity and 
worth of all Floridians. Sadly, shortly thereafter, Republicans 
in Florida began to undermine its implementation.
    The bill passed last week by the Florida State legislature 
would require people with felony convictions to pay all 
restitution, fines, and fees resulting from their sentences or 
get these fees excused by a judge before becoming eligible to 
vote.
    This bill is wholly unnecessary, as Amendment 4 was self-
executing and did not require implementing legislation. This 
measure is nothing but a poll tax that would effectively 
disenfranchise those that who unable to pay if signed into law.
    They do nothing to ensure election integrity and are merely 
a pretext to suppress the vote. Further, they blatantly ignore 
the will of the Florida voters that approved the measure in a 
retroactive act of voter suppression. It is an act of defiance 
by this legislature.
    Florida has also been a host of other voting rights and 
election administration issues in recent years. I very well 
remember hanging chads.
    Just last year, the Florida Secretary of State and the 
supervisors of elections in 32 counties were sued for violating 
the Voting Rights Act requirements which would provide 
bilingual voting machines and assistance for Spanish-speaking 
voters.
    In both 2016 and 2018, October hurricanes made it difficult 
for voters to register before the deadline or receive their 
vote-by-mail ballots. The legislature did nothing to help.
    Florida has seen repeated attempts at voter purging, and 
the purge rate has been steadily been increasing over the 
years. From November 2008 to November 2010, the median purge 
rate was 0.2 percent. It rose to 3.6 percent from 2012 to 2014 
and jumped to more than 7 percent between December 2016 and 
September 2018.
    Florida has always sought to restrict early voting. In 
2014, the Florida Department of State issued an opinion banning 
colleges and universities from housing early voting locations. 
That opinion was overturned by a district court judge in 2018. 
However, several counties ignored the district court and 
refused to provide such rights on campuses.
    Today, we will hear from experts, activists, and litigators 
who have worked for years to ensure that every Floridian can 
exercise his or right to vote. Their testimony will help as 
Congress seeks to understand what needs to be done to safeguard 
every American's right to freely access the ballot.
    The first panel will consist of four witnesses:
    The first will be Ms. Gonzalez-Eilert, Executive Director, 
Common Cause Florida. At Common Cause, she is responsible for 
leading democracy reform efforts statewide.
    Welcome.
    Ms. Bastien, Executive Director, Family Action Network 
Movement, an organization whose mission is to empower Haitian 
women and their families socially, economically, politically, 
and facilitate their adjustment to south Florida.
    Ms. Batista, Florida Field Director, Mi Familia Vota, an 
organization which works to unite Latino immigrant and allied 
communities to promote social and economic justice through 
citizenship workshops, voter registration, and voter 
participation.
    Mr. Andrew Gillum, Chair, Forward Florida. Andrew Gillum 
served as Mayor of Tallahassee from 2014 through 2018 and was a 
candidate for Governor of Florida in 2018. Mr. Gillum is a 
lifelong Floridian who has worked to ensure access to voting 
for all Florida citizens.
    You will each be recognized. We will start with Ms. 
Gonzalez-Eilert. You will have five minutes. You will see in 
front of you lights. When the green light comes on, you begin. 
When the yellow light comes on, you have one minute left. When 
the red light comes on, please try to wrap up.
    You are recognized, Ms. Gonzalez-Eilert. Thank you.
    Oh, I am sorry. Excuse me. You know, I am so used to the 
Ranking Member sitting next to me. My colleague from Georgia 
would like to make an opening statement.
    Mr. Loudermilk, thank you so much for being here.
    [The statement of Chairwoman Fudge follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Loudermilk. Thank you, Madam Chairwoman. Thank you for 
recognizing me here.
    I appreciate the opportunity to be here, and I appreciate 
you in holding these hearings across the country. And I didn't 
realize how welcome we were when I found out yesterday they had 
an air show in our honor just to be here.
    Thank you for the time. And I appreciate all the officials 
here in Broward County for opening this facility.
    The Committee on House Administration has an extremely 
important task to conduct oversight of Federal elections. 
Throughout the Committee's existence, Republicans and Democrats 
have worked across the aisle to create significant election 
policy that widely impacted this Nation.
    The Subcommittee on Elections was created for the primary 
purpose to be an extension of House Administration, to enhance 
the Committee's oversight capabilities of Federal elections and 
how these elections are administered.
    While I am a member of the full Committee but not 
technically the Subcommittee, I appreciate you, Madam 
Chairwoman for having me here to represent the minority voice 
in today's Subcommittee proceedings.
    Chairwoman Fudge has been dutifully leading our 
Subcommittee this Congress to investigate voting rights issues 
in order to create a new formula that will reauthorize Section 
4 of the Voting Rights Act.
    The Voting Rights Act, enacted in 1965 for the purpose of 
removing racial-based restrictions on voting, has historically 
been a bipartisan effort, though most may not realize that. 
This legislation was most recently reauthorized under a 
Republican President and a Republican Congress.
    In 2013, the Supreme Court determined Section 4 of the 
Voting Rights Act to be unconstitutional in Shelby v. Holder. 
Chief Justice Roberts said that the Voting Rights Act of 1965 
employed extraordinary measures to address an extraordinary 
problem. While the Court did not decide whether there is still 
an extraordinary problem, the Supreme Court did hold that what 
makes sense at one time has lost its relevance. They noted 
that, nearly 50 years later, things had changed dramatically.
    The Voting Rights Act primarily remains under the 
jurisdiction of the House Judiciary Committee. Our Committee, 
however, has an obligation to review election administration 
and recognize issues if any should elevate from State to 
Federal level, which is why I am here today.
    After reviewing the written witness testimony and speaking 
with State and local election administrators, evidence shows us 
that the previous Supervisor in Broward County made inexcusable 
mistakes, from ballot design, lack of transparency, missed 
deadlines, and even within the ballot-counting process, all of 
which jeopardized the system's integrity.
    These errors, while egregious, have not been determined as 
an intentional voter discrimination or suppression. Also, the 
State has already taken steps to counter these problems for the 
upcoming election cycle and are proactively working within 
their jurisdiction to make improvements.
    If there is clear evidence of intentional widespread voter 
discrimination, Congress should take steps to remedy that in a 
bipartisan manner. However, the Subcommittee has yet to find 
concrete evidence of this within the field hearings.
    It is essential that Congress make well-informed decisions 
by hearing from all the proper stakeholders and reviewing the 
facts and evidence.
    The facts we know up to this point are simple: Voter 
turnout in the 2018 midterm election was the highest it has 
been in 50 years. Despite the unacceptable mistakes in the 
execution of the election here in Broward County, voter turnout 
was up by more than 11 percent from the previous midterm in 
2014.
    We also know that the State of Florida is already taking 
steps to remedy the mistakes seen in the 2018 election, as well 
as creating new laws that are tailored to the unique needs of 
their State's citizens. Congress must understand our role in 
assisting States, not overpowering their rights or taking over 
their election systems.
    Today, I am here to listen and to learn more from these 
proceedings in Broward County to discover what the Federal 
Government's role should be here. And I look forward to hearing 
from all our witnesses who have graciously agreed to testify.
    Again, thank you, Madam Chairwoman. Thank you all for 
having me here. And I yield back the balance of my time.
    [The statement of Mr. Loudermilk follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you very much.
    I do want to do something a little out of order, and I can 
because I am the chair and I have the microphone. I would like 
to recognize my good friend, Mr. Hastings, for a few opening 
remarks.
    Mr. Hastings.
    Mr. Hastings. Thank you so very much, Madam Chairwoman.
    Thanks, Pete. It didn't take you long to learn about 
Florida microphones.
    I want Dale Holness and the other County Commissioners to 
know that I always wanted to sit on the dais here at the 
county. And for those who know that I have been ill over a 
protracted period of time, perhaps my next job will be to run 
for the county commission. In the meantime, know that I am 
staying in Congress.
    Let me thank you, Chairwoman Fudge, and explain to the 
audience here that Nancy Pelosi, the Speaker of the House, 
actively sought Chairwoman Marcia Fudge to take on this immense 
responsibility. I am grateful to Marcia and my colleague from 
Georgia and my dear, dear friend, G.K. Butterfield, and Pete 
Aguilar for coming here to be with Rep. Ted Deutch and Debbie 
and Frederica and myself in listening to an extraordinary panel 
just on the credentials of the individuals that are here.
    I have prepared remarks, Madam Chairwoman, but, in the 
interest of time, I am going to pass on those.
    I just want to say that, when the Supreme Court struck down 
the Voting Rights Act, they struck down the promise that all 
eligible Americans should have the right to vote and gave free 
rein to States to enact discriminatory voting laws. And every 
day that Congress fails to act, voters are in danger. We must 
have a full restoration of the Voting Rights Act in this 
country, and hearings like this are critically important in 
accomplishing that goal.
    I told a good friend of mine this morning--we were at 
breakfast, and I told him that I had a dream last night, and I 
was speaking, and what I said was that the forces of 
obstruction and oppression of minorities in this country have 
deep pockets, and they have been and are continuing to do 
everything they can to cause people not to vote.
    But let me send a message to them. Certainly, African-
Americans have suffered oppression for an extraordinary period 
of time. We are used to it. And we are unrelenting in making 
sure that every person in this State, as well as this Nation, 
has an opportunity to vote. And rather than obstruct, we should 
be about the business of instructing people how important 
voting is to their lives and to all of ours.
    Madam Chairwoman, I can't thank you enough, and my 
colleagues, for the extraordinary efforts that you all have put 
forward, traveling around the country to develop the record. 
And, with your permission, I would ask unanimous consent that 
my prepared remarks be put into the record.
    Chairwoman Fudge. Without objection, so ordered.
    Mr. Hastings. Thank you.
    [The statement of Mr. Hastings follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you so much, Mr. Hastings.
    Ms. Gonzalez-Eilert, you are recognized for 5 minutes.

  STATEMENTS OF ANJENYS GONZALEZ-EILERT, EXECUTIVE DIRECTOR, 
 COMMON CAUSE FLORIDA; ANDREW GILLUM, CHAIR, FORWARD FLORIDA; 
  NANCY BATISTA, FLORIDA STATE DIRECTOR, MI FAMILIA VOTA; AND 
MARLEINE BASTIEN, FOUNDER AND EXECUTIVE DIRECTOR, FANM AYISYEN 
                        NAN MIYMI, INC.

              STATEMENT OF ANJENYS GONZALEZ-EILERT

    Ms. Gonzalez-Eilert. Good morning. Thank you, Chairwoman 
Fudge and Members of the Subcommittee on Elections, for 
inviting Common Cause Florida to participate in this hearing 
today.
    My name is Anjenys Gonzalez-Eilert, and I am the Executive 
Director of Common Cause Florida. We are a national, 
nonpartisan watchdog organization with 1.2 million supporters 
and 30 State chapters.
    Madam Chairwoman, I find my testimony will echo a lot of 
your opening comments. Although there are many voting-related 
topics to cover in Florida, I will focus my observations on 
election protection and election administration.
    Election protection helps ensure eligible voters are able 
to participates in our democracy. Along with our partners, we 
have collected data that can be used to create meaningful 
reform, ensuring that our elections are free, fair, and 
accessible, as they are meant to be.
    Issues that we find in Florida, for example, are lack of 
standardized training. As outlined in the conduct of elections 
reports submitted by the supervisors of elections to the 
Division of Elections, 70 percent of the issues reported were 
due to human error in our past election.
    Our Polling Place Procedures Manual has not been revised 
since 2014. Things such as language access and how to move a 
voter in polling electronic poll books has not been included.
    There is a need for standardized training by the Secretary 
of State and supervisors and canvas board members. This need is 
addressed in the new election bill being proposed, S.B. 7066, 
which speaks to the responsibility of the Secretary of State as 
it refers to signature matching as follows: Provide formal 
signature matching training to supervisors of elections and 
county canvassing board members.
    The cure process for vote-by-mail and provisional ballots. 
In 2014, a signature cure process was created. The cure process 
currently requires that a voter submit a completed affidavit 
and a copy of their identification.
    Currently, provisional ballots are issued when voters' 
eligibility cannot be verified. We feel the issuance of 
provisional ballots can be minimized with more stringent poll 
worker training, as they often issued erroneously.
    Language access has long been a problem in the State of 
Florida. The only option currently available to people when 
they go to the Division of Elections website is to use Google 
Translate. As we know, that can cause some errors. It would be 
of great benefit to have these pages properly translated.
    In 2018, the Florida legislature approved legislation that 
would allow the Secretary of State as of January 1 of this year 
to join ERIC to improve the accuracy of our voter rolls and 
access to registration. However, in this current budget, there 
is no specific line item that proposes money for ERIC.
    In recent years, Florida has been struck by several 
hurricanes during election season. More needs to be done to 
prepare for continuity of operations, as we know that this is 
likely to happen again, moving back to standardized processes.
    There are various things that would be helpful at the 
Federal level, and I would like to advocate for them now. All 
of these can be found in H.R. 1: automatic voter registration, 
same-day voter registration, and election security.
    The Election Security Act is a strong response because it 
would promote post-election risk-limiting audits, voter 
verifiable paper ballots, and increased funding for States to 
improve their voting machines.
    As certain States and localities, including here in 
Florida, continue to try to suppress the votes of some 
communities and rig the rules to make voting more difficult for 
some people, Congress must step up to ensure that voting 
remains a right for all eligible Americans.
    You can be on the correct side of history and support 
reforms that strengthen our democracy, or you can be on the 
side of the status quo and turn a blind eye to voter 
suppression tactics such as poll taxes, switching or 
eliminating polling places, and using signature mismatches to 
disenfranchise eligible Americans.
    For nearly 50 years, Common Cause has fought to ensure that 
the voices of all Americans can be heard in government, and we 
will continue fighting until all eligible Americans can have 
their voices heard at the ballot box.
    Thank you.
    [The statement of Ms. Gonzalez-Eilert follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you.
    Mr. Gillum, you are recognized for 5 minutes.

                   STATEMENT OF ANDREW GILLUM

    Mr. Gillum. Thank you so much, Chairwoman Fudge, and to the 
distinguished Members of this Subcommittee. Special 
appreciation to the Florida delegation who represent us so as 
well in Washington, D.C.
    I consider it an honor to be able to provide a few comments 
to this extremely important Subcommittee as you all do the work 
that is part the basic principle which serves as the foundation 
for our democracy: voting.
    I want to start by applauding the 116th Congress for 
passing H.R. 1, a historic piece of legislation. And in 2018, 
we saw a record number of Floridians use their voices at the 
ballot box. In a non-Presidential year, we had 8.2 million 
people cast ballots, more than 2 million more people than were 
expected to participate in that election.
    Turnout among voters in our State was 57 percent African-
American; 48 percent of Hispanics voted; 67 percent of white 
voters voted. Those are increases of 143 percent, 161 percent, 
and 134 percent respectively. Historic turnout indeed.
    Florida voters also voted to pass Amendment 4, which the 
Chairwoman referenced in her opening comments, restoring the 
right to vote to formally incarcerated citizens and making 
Florida a forgiving State. We were unambiguous as voters, 
seeing as that amendment gained more votes than the sitting 
Governor, more votes than me, and, again, won with a historic 
64 percent of the voters casting ballots saying that we were 
going to be a State that didn't judge people forever by their 
worst day.
    That now historic change is under assault and has been 
under assault these last several weeks in the Florida 
legislature. I will pass on further comments there.
    We should all be proud of these victories. But in 2018, the 
elections in Florida also saw some inequities that still exist 
in our electoral system. Out of the 8.3 million votes cast, 
83,000 were deemed invalid. In a State where elections are 
often decided by 1 percent--in Senator Nelson's case, around 
10,000 votes; in my case, around 33,000 votes. And the 
Chairwoman has already mentioned how close our Presidential 
elections can be. That means that 1 percent of the vote can be 
consequential to the outcome of any election, statewide or 
Federal.
    Last year, over 2.6 million people voted by mail in the 
State of Florida. Researchers have found the statewide average 
of rejected vote-by-mail ballots in 2018 was at 1.2 percent--
again, in a 1 percent State, 1.2 percent rejected--a rate that 
was even higher than the Presidential elections of 2012 or 
2016. The rejection rate is higher in Broward County, with 2.8 
percent of vote-by-mail ballots being rejected; even higher 
among voters between the ages of 18 and 21.
    Judge Walker, when deciding on one of the contests during 
the recount period here in the State of Florida in 2018, said: 
The precise issue in this case is whether Florida's law that 
allows county elections officials to reject vote-by-mail and 
provisional ballots for mismatched signatures, which, with no 
standard, an illusionary process to cure, and no process to 
challenge the rejection, passes constitutional muster. Walker 
goes on to say: The answer is simply it does not.
    To add to this troubling data, the ACLU of Florida and the 
University of Florida analyzed the 2014 and 2016 elections and 
produced a report which found that younger and ethnic minority 
voters were much more likely to have their vote-by-mail ballots 
rejected and less likely to have their vote-by-mail ballots 
cured when they were flagged for a signature mismatch.
    Ladies and gentlemen, one of the sets of things that I 
think we want to get to today are a set of recommendations on 
how we make this process work better. A few recommendations 
from my perspective would be:
    One, allow same-day voter registration.
    Two, repeal Florida's onerous voter registration laws.
    Three, standardize and fund early voting across the State 
of Florida.
    Four, universal paid postage--universal paid postage for 
all absentee ballots.
    Allow ballots postmarked by election day to be counted.
    Increase funding for the supervisor of elections offices.
    Mandate electronic poll books to make sure that voter 
registration is portable across the State.
    Fix the signature mismatch law. No untrained person should 
be able to invalidate a ballot simply because the ``W'' in your 
signature this year looks different than the one from the year 
before.
    And, finally, a real recount system that triggers an 
evaluation of an actual paper receipt rather than feeding the 
same ballot through the same machines that produced the same 
count in the first place. We have paper ballots in the State of 
Florida, and we should count them.
    Ladies and gentlemen, because my time draws near, I want to 
conclude by saying, last year, I was honored to be the 
Democratic Party's nominee for Governor of this great State. 
This is not partisan for me. I believe all votes should be 
counted--Republican, Democrat, independent, no party 
affiliate--with one caveat and, actually one interest in mind, 
and that is the goal being that the person who is ultimately 
sworn into office is the one who actually got the most votes.
    Finally, in deciding on an elections challenge during the 
2018 recount, Judge Walker concluded: This is a case about the 
precious and fundamental right to vote, the right preservative 
of all other rights. And it is about the right of every voter 
to have his or her vote counted, plain and simple.
    Again, thank you for the opportunity. I will submit the 
rest of my comments, hopefully, for the record. Thank you, 
Madam Chairwoman.
    [The statement of Mr. Gillum follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you very much.
    Ms. Batista, you are recognized for 5 minutes.

                   STATEMENT OF NANCY BATISTA

    Ms. Batista. Thank you, Chairwoman Fudge, and to the 
Members of the Subcommittee here today. My name is Nancy 
Batista. I am the Florida State Director of Mi Familia Vota 
Education Fund, a 501(c)(3), nonprofit organization and also Mi 
Familia Vota, a 501(c)(4), nonprofit organization, nonpartisan 
organization.
    Our mission is to build Latino political power. We do this 
by creating voters through the citizenship workshops that we 
provide. We also register people to vote. Last year, we 
registered 29,745 people to vote. We knocked on 101,000 doors, 
called 734 people, and sent 152,535 text messages to get out 
the vote. We also did a campaign to get out the vote for the 
primary election and for the general election.
    We work in low-propensity, high-density Latino areas. 
During the voter registration process, we were making sure that 
people would sign up to receive a vote-by-mail ballot. During 
the primary election, we had four teams of five people each 
that were knocking on doors and making sure to get out the 
vote, GOTV.
    Everything seemed to be going well until I was made aware 
of something that had happened not too long after the primary 
election was over. A person very close to me received a letter 
stating that their mailed-in ballot had been voided out due to 
a signature mismatch although they had not changed their 
signature since high school. That person was me.
    The time for early voting came for the general election. I 
was prepared and I went to my early-voting site. While I was 
there, a couple of things happened.
    The first thing was that I walked in to surrender my ballot 
because I wanted to make sure that my vote would count. As I 
tried to surrender my mail-in ballot, the person in the front 
told me that this was not protocol and that she could not do 
this. I told her to please contact her supervisor and that I 
was aware of my rights and that I knew that I could this. I 
waited for her to make contact with her supervisor.
    While I waited for her to get clearance, I saw something 
else happen. I heard how another person working there told an 
older lady that the person next to her could not be next to her 
while voting. The person responded back that he was her son and 
that he was assisting her because she did not understand. The 
lady continued to say that he could not be there with her. Then 
the son asked for the material in Spanish, and said she that 
they did not have it at this time.
    The person told the lady: You don't have this information 
in Spanish, and you won't let me assist my mom, who doesn't 
understand English. Do you have someone that can assist her? 
The lady said no. I jumped in, and I told her that I would be 
calling voter protection services about this incident to let 
them know about both incidents.
    The other person came back with another person next to her. 
She told me that I could surrender my mail-in ballot and that 
they would be giving me a provisional ballot. I turned around 
and I no longer saw the mother and son.
    I got to my office; I called the lawyer from Latino Justice 
and told her of what I had just witnessed and experienced. I 
also called voter protection services and let them know about 
the incidents and told them that this was an early-voting site 
in Polk County that did not have any Spanish material and that 
no one could assist there that was bilingual as well.
    We hosted a party at the polls in order to motivate our 
communities to go out and vote. While we were there, we had a 
couple of people that approached us, upset because of issues 
that they had encountered.
    We had another person that mentioned that their voting site 
was in a gated community and that there was a passcode to get 
in and that she was not able to get in. My colleague told her 
that it was best for her to go to the supervisor of elections 
for her to cast her vote that way.
    Election day arrived, and we were at the office. A couple 
people walked in, confused, asking for the office information 
regarding their polling site. Our office is nearby a library. 
The library was an early-voting site, but it was not a voting 
site for election day. We assisted those people by looking up 
their information and providing them with information on where 
their voting site was.
    I am here to uplift the voices of those people that have 
been suppressed. I know because of my work I was able to cast 
my vote, but what about that mother and son? What about their 
vote? Did their vote not count? So I just want to make sure 
that our voices are heard.
    Thank you.
    [The statement of Ms. Batista follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you.
    Ms. Bastien.

                 STATEMENT OF MARLEINE BASTIEN

    Ms. Bastien. Good morning, Chairwoman Fudge, and thank you 
for inviting us today. And I would like to thank the Members of 
the Subcommittee on Elections for this important forum this 
morning.
    I am honored to be here. I am Marleine Bastien, Executive 
Director of Family Action Network Movement, which is a 
501(c)(3) nonprofit organization and FANM in Action, which is a 
501(c)(4) nonprofit organization. FANM provides wraparound 
services for low- to moderate-income families, which includes, 
of course, civic voter and voter education. Our services are 
free and accessible to all, but our core constituency remains 
Haitian-Americans, many of whom never voted before they arrived 
in the U.S.
    On October 29, 2007, under the reign of General Henri 
Namphy, the morning of an election that was supposed to bring 
an end to a repressive era turned into a bloodbath when 60 
armed soldiers and others in civilian clothes went into the 
school where people were supposed to vote, they opened fire, 
and many went into the school and started to attack voters with 
machetes.
    You would wonder why I am bringing this up in this forum. 
No one has gone to that length in the U.S. However, the 
incidents like this one that I just mentioned are designed to 
terrorize and appear fear--to terrorize and appear fear--and 
then curtail the voting process and the voting rights of our 
citizens.
    Incidents that occurred during the 2000 Presidential 
elections brought back memories to many Haitian-Americans who 
were voting for the first time. Many Haitians who grew up under 
the dictatorships of Francois and Jean-Claude Duvalier suffered 
from collective trauma resulting in post-traumatic stress 
syndrome. Some of the events of 2000 Presidential elections 
brought some disturbing memories to the mind of our voters. The 
elderly had the hardest time. And I remember that our managers 
at FANM started to receive distressing phone calls. I witnessed 
groups of white men screaming and intimidating voters, calling 
them names. Our office was inundated with phone calls from 
people who were turned away, harassed, and who could not vote.
    And it is for these reasons FANM joined as a member of the 
Haitian-American Grassroots Coalition. The Haitian-American 
Grassroots Coalition was a plaintiff in the lawsuit that eased 
up some of the voting processes in Florida. Thousands of 
Haitians were not allowed to vote [inaudible] Were allowed to 
vote because of our work.
    Now, during the November elections of 2018, FANM, with the 
support of New Florida Majority, ran a canvassing program 
combined with a communication strategy targeting close to 6,000 
voters. We visited areas in the ZIP Codes where mainly 
immigrants live: 33127, 33137, 33138, and 33150. We hired 
canvassers who went door to door, and then we developed a GOTV 
program to educate members and then make sure that they 
understood that no one should be able to turn them away from 
their basic and sacred right to vote.
    So, in the past elections, during this canvassing, we 
witnessed the following issues: voters who were turned out 
because of their names. Many Haitians have compound names, 
Jean-Robert or Jean-Claude. If on their card they have ``J.R.'' 
And yet on their driver's licenses they have their full names, 
they are prevented from voting.
    The design and the length of the ballot was also a 
deterrent. Many could not complete the voting process because 
the ballot was so long. Many went to the wrong polling place. 
While we were in some of the voting places close to 7:00 p.m., 
some people were still trying to locate their voting spaces.
    No provisional ballot office in some of the precincts; no 
assistance for people who would not read or speak English or 
Spanish; last-minute changes of the polling sites; long lines, 
which also was a deterrent from what we observed last November; 
and then defective voting machines.
    In my experience, to support community voter education 
initiatives, I think bilingual resources are often lacking and 
that they should be provided. In the 2018 midterm election, 
polling sites in Haitian-concentrated areas were lacking 
Haitian translators or even Spanish-speaking translators, and 
this is unacceptable. The number of people with Haitian 
ancestry has and continues to grow in Florida. According to the 
Census Bureau, Haitian-Americans' population has grown more 
than 300,000 in south Florida.
    To conclude, permit me to express my thanks for the honor 
to address this Subcommittee. We share the prayer that Congress 
shall act to fix these issues now and before the 2020 election 
for every voice to be heard.
    The election process so far excludes millions of Haitians, 
Hispanics, and people of Caribbean descent, many of whom live 
in underserved neighborhoods. Our question today is, why are 
these people targeted? Why are immigrants targeted? Why are 
these communities targeted?
    The Subcommittee must raise these issues to the highest 
level of House and Senate leadership and pass laws that will 
protect and promote our sacred right to vote and maintain our 
sacred right to vote. As the biggest democracy in the world, we 
must do better in creating conditions for citizens to exercise 
their right to vote. It is an important first step toward an 
equitable society, a viable and strong democracy. Elections 
should be free, elections should be fair, and elections should 
be open and accessible to all.
    We are seeing that the ugly head of suppression is rising 
again in Florida. Our hardworking citizens, our hardworking 
voters want participation. They want it, and our democracy 
demands it.
    Thank you so much.
    [The statement of Ms. Bastien follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Mr. Butterfield, you are recognized for a 
statement and your questioning.
    Mr. Butterfield. Let me thank you very much, Chairwoman 
Fudge, for your friendship. Thank you for your leadership on 
this Subcommittee and, most importantly, thank you for your 
vision in planning seven field hearings across the country.
    We started in Brownsville, Texas, several weeks ago, and on 
to Atlanta, and then up to North Dakota, a State that I had 
never traveled to before, but we went to North Dakota, and then 
down to North Carolina, and then over to your home of 
Cleveland. Now we are in Fort Lauderdale, Broward County, and 
next week down to Birmingham.
    So thank you so very much for your willingness to take us 
on the road and to have these hearings.
    I have sat at each one of these hearings, and I will say it 
today just for emphasis: This is a Congressional hearing. We 
are collecting evidence that will be presented to the Congress 
of the United States of America. This is not a political visit, 
my dear friend, Alcee Hastings, to Broward County, even though 
you and I----
    Mr. Hastings. [Inaudible.]
    Mr. Butterfield. But this is indeed a very serious hearing 
where we are collecting evidence and to be in Congressman 
Hastings' district is really a joy, because we are all friends 
of Alcee Hastings and hold him in the highest esteem.
    We are searching for evidence that will support or refute 
claims of voter suppression for minority citizens not just in 
Florida but across the country. We all know that the Voting 
Rights Act was passed in 1965, just days after I graduated from 
high school, passed in 1965.
    It had many meaningful provisions in the Act. The three 
most notable provisions were the elimination of the literacy 
test; the creation of Section 2, which gave minority plaintiffs 
the right to bring lawsuits--it wasn't restricted to any 
particular State or county or jurisdiction. It is nationwide in 
its scope. And Section 2 allows minority plaintiffs to sue in 
Federal court if they feel that their vote is being diluted.
    But the another part was Section 5, which gave the 
Department of Justice the authority to review and pre-clear 
voting changes in many States across the country and many 
counties within States. For example, in my State, only 40 
counties were covered. In the State of Georgia, for example, 
the entire State was covered. And so Section 5 has been a very 
powerful tool.
    There is a great difference between Section 2 and Section 
5. Section 2 is very expensive litigation--very expensive 
litigation. When I litigated Section 2 claims back in the 
1980s, it was around a million dollars to litigate one of those 
claims. I suspect that in 2019 and going forward, it is multi 
millions of dollars involved in bringing a Section 2 claim.
    But Section 5 is very inexpensive. It is practically of no 
cost whatsoever. It simply gives to the jurisdiction that is 
affected the responsibility of getting the Justice Department 
to take a look at the proposed change, including redistricting 
maps, to see if those changes will dilute in any way minority 
voting rights.
    And Section 5 has worked quite well down through the years 
and has been the catalyst that has caused many positive changes 
in voting that African-Americans and other minority groups have 
benefited from.
    But on June 25, 2013, we received a devastating surprise. 
The U.S. Supreme Court told us that, while Section 5 continues 
to be a constitutional provision of the law, that the formula 
that is used to give life to Section 5 needed updating. It 
needed a contemporary formula, not one based in 1964 or 2006, 
but we needed a contemporary formula for Section 5.
    And so that is, in part, what these hearings are all about. 
Yes, we are gathering evidence to try to lay the basis, the 
legislative basis, for updating the formula in Section 4, but 
we are also looking for other means of guaranteeing the right 
to vote for all of our citizens.
    Ms. Nancy Batista, let me, in the time remaining that I 
have, ask you very quickly: You mentioned that there were no 
ballots or materials for Spanish-speaking voters. What county 
were you referencing?
    Ms. Batista. It was in Polk County.
    Mr. Butterfield. Okay. And I understand that ballots were 
not available, bilingual ballots, on that day, but the 
literature in advance of the election, was there any literature 
that was bilingual or for Spanish-speaking voters leading up to 
the election?
    Ms. Batista. There was provided--they said that, that day, 
they didn't have any. It just happened to be the day that I 
went there. And when I asked--well, not me--the person that was 
there asked for that material, they said that they didn't have 
it. And then they didn't have anyone that would assist them 
being bilingual.
    Mr. Butterfield. Sure.
    I am going to ask you the obvious, but, again, this is for 
the Congressional Record, so I want to make sure it is in the 
record. Does it disenfranchise Spanish-speaking voters if 
ballots and the literature surrounding the election are not in 
Spanish?
    Ms. Batista. Yes, it does. A lot of the people that came 
here post-Hurricane Maria do not understand the language, the 
English language, and cannot read it. They attended school. And 
that is part of the lawsuit that is being done, for those 
ballots to be provided in their native language so that they 
can understand.
    Those amendments are very confusing, especially when you 
try to translate them. What mean ``yes'' might mean ``no.'' And 
so trying to even interpret that or translate that to someone 
is very confusing.
    Mr. Butterfield. Thank you. Thank you.
    Let me ask my final question to you, Mr. Gillum.
    And thanks to all of the witnesses for your testimony 
today.
    But, yesterday afternoon, I took a few minutes to look at 
your constitutional Amendment No. 4 that the voters passed 
overwhelmingly by a two-to-one margin last year and read it in 
its entirety, and I have some concerns about what your State 
legislature is now attempting to do, and that is, to require 
individuals who have previous convictions of felonies to pay 
restitution and court fines and fees before being allowed to 
exercise the franchise.
    As a former judge, let me just give this to--and I will be 
done, Madam Chairwoman. As a former judge, I would sentence 
individuals to an active sentence in prison for offenses that 
they committed. Ancillary to that decision, I would also tack 
on a provision that the defendant shall also be responsible for 
the fines, the costs, and any restitution that may have 
accrued. Essentially, that would be just for the record. It 
would be for the record and maybe later converted to a judgment 
or to a lien.
    But let's just take a 16-year-old offender in the 1980s who 
broke into an abandoned house and was charged with the felony 
of breaking and entering and larceny. And he stole an eight-
track tape in the 1980s that, at that time, was worth $400. And 
that young offender received a 3-year active sentence. He has 
served the active sentence, he has been released from parole, 
he is now a law-abiding citizen in the community. But, still, 
that $400 restitution and the court costs have now been 
accruing interest, I presume, over the last 30 years, and now 
it is thousands of dollars. And, apparently, the State 
legislature is telling that young man--but now he is a middle-
aged man--that, before he can vote, he has to pay all of these 
thousands of dollars before being allowed to vote.
    In my world, that is a poll tax. I don't----
    Mr. Gillum. That is right.
    Mr. Butterfield [continuing]. Know any other way of saying 
it.
    So, Mr. Gillum, my question to you is: Was there any notice 
on the part of the lawmakers regarding this constitutional 
amendment, that, if passed, that these prior felons--I hate to 
call them felons--those with prior felony convictions would be 
required to pay money? Was there any notice to the public that 
this was included in this?
    Audience Member. No.
    Audience Member. No.
    Mr. Gillum. I think the audience has answered, Congressman, 
and I will answer it into the record.
    The scenario that you pointed out is a very live and real 
one for far too many people here in the State of Florida.
    I don't know about in your home State, Congressman, whether 
or not the process is identical to Florida, but to get on the 
Florida--to get on the ballot for a constitutional amendment, 
the language must be approved through the Florida Supreme 
Court. The Florida Supreme Court very judiciously looks at the 
wording very specifically, takes out, adds to it, sends it 
back. Ultimately what results is the clearest reading possible 
so that any voter could understand the intent and the intention 
when they go into the ballot box to vote.
    It was very, very clear that court fees and fines were not 
in the constitutional language when voters, again, 64 percent 
of us, went out and approved the constitutional amendment to 
automatically restore rights to a class of returning citizens.
    Mr. Butterfield. Thank you.
    Mr. Gillum. And now through this legislative process, as 
you have already pointed out, we have loaded it up, and I agree 
with your summary, which is, it equates very much so to a poll 
tax----
    Mr. Butterfield. Thank you.
    Mr. Gillum [continuing]. Which we got rid of over 100 years 
ago.
    Mr. Butterfield. Thank you. I yield back.
    Chairwoman Fudge. And just for the benefit of the other 
members on the panel, you will not have 10 minutes. He had them 
because he is a member of the Subcommittee and I did not call 
on him for an opening statement, so I gave him a little extra 
time so don't try it, the rest of you.
    Mr. Butterfield. What if I spent all Sunday afternoon 
writing this?
    Chairwoman Fudge. And I want to remind our witnesses that 
their entire written statements will be a part of the record 
and that you have 5 days in which to revise it or provide us 
extra material or any additional material.
    Mr. Loudermilk, you are now recognized, sir.
    Mr. Loudermilk. Thank you, Madam Chairwoman.
    And I appreciate all the witnesses' being here and your 
testimonies.
    Look it is clear that our Nation unfortunately does have a 
history of voter suppression and discrimination and that is why 
we have legislation such as the Voting Rights Act. Clearly, we 
have history, modern history, of voter irregularities, 
especially here in Broward County, so I think is it very 
appropriate, Madam Chairwoman, that you chose Broward as one of 
the seven sites for a hearing.
    So one of the things that is our responsibility, as my 
colleague Mr. Butterfield stated, is to gather facts to 
determine, is there still voter suppression and discrimination 
occurring? And is it Congress' role to fix those problems, or 
are they as a result of human error, as I think Ms. Eilert 
stated, that 70 percent of the issues that she had encountered 
were because of human error?
    Here in Broward County, as most everyone in the Nation 
knows and as Mr. Gillum had stated, it seems to be the 
epicenter of some national elections, as well as very close 
elections. Even in this election cycle, across the Nation, we 
had many, many elections that were within 1 percent, 2 percent. 
Some of those were determined days or weeks after the ballots 
closed.
    So one of the things that we want to do is gather evidence. 
Are they because of human error, incompetence? Or are they 
because of actual voter discrimination?
    Just here in Broward County, we have had Miriam Oliphant's 
poor handling of the 2000 Presidential election, missing 
ballots from the 2004 election, and then, more recently, the 
uncounted ballots that were mysteriously discovered a week 
after the election under, most recently, Supervisor Brenda 
Snipes' watch.
    And so, Ms. Eilert, if you don't mind, I will ask you, do 
you--because you had referenced the 70 percent of human error. 
Do you consider these issues here in Broward County to be 
inefficient or incompetent work by the county election 
supervisors, or do you think they are active voter suppression 
and discrimination?
    Ms. Gonzalez-Eilert. Congressman, this would be solely my 
opinion. So, I mean, we can testify to the fact that there were 
a lot of things that were human error, that there were mistakes 
made. However, I could not in good conscience tell you whether 
or not some of this was intentional or not.
    Mr. Loudermilk. Now, has your organization worked to 
resolve any issues like we saw here in Broward County?
    Ms. Gonzalez-Eilert. I am sorry?
    Mr. Loudermilk. Has your organization worked to resolve 
issues like we saw in Broward County or across the State at the 
State level?
    Ms. Gonzalez-Eilert. Absolutely. We work year-round with 
the supervisors of elections throughout the State of Florida, 
and we have a very collaborative relationship with them. It is 
not an oppositional relationship. We ask them what are some of 
the issues that they find and see and how we can help them. We 
make recommendations, both at the supervisor level, and we try 
and meet with the Secretary of State, given that our Secretary 
of State is also the chief election officer for the State of 
Florida. So, yes, we currently provide recommendations for 
them.
    Mr. Loudermilk. All right. And thank you for your work.
    And, as I said, part of our task is to determine how much 
of the problems that exist do need to be corrected at the State 
level versus Washington, D.C., which takes a long time to get 
anything done and, quite often, is not very responsive and 
tries to do a one-size-fits-all, which a lot of areas in our 
Nation are diverse.
    Mr. Gillum, appreciate your testimony and the work that you 
have been doing. A simple question: Do you believe that non-
citizens should have the right to vote, non-U.S. citizens?
    Mr. Gillum. I think the individuals who have the right 
ought to comport with what the Constitution permits.
    Mr. Loudermilk. So do you believe that someone who is not a 
citizen of the United States should have a right to vote? I am 
not----
    Mr. Gillum. The Constitution of the United States affords 
citizenship and the rights----
    Mr. Loudermilk. Okay.
    Mr. Gillum [continuing]. Of citizenship, which include the 
right to vote, right?
    Mr. Loudermilk. Okay.
    Mr. Gillum. And so that right is one that is maintained for 
U.S. citizens.
    Mr. Loudermilk. So, with that, there is a lot of 
controversy over voter roll purging, which, actually, Federal 
law requires to be done. How do you propose that we actually 
effectively ensure those who are eligible voters are the ones 
that are voting?
    Mr. Gillum. Well, I mean, the unfortunate thing is that, in 
my State, here in the State of Florida, we actually approach 
the question very differently. It seems we almost look directly 
at how we disenfranchise as many people as we possibly can.
    And I will give you an example. Because human error, 
obviously, is a part of the equation, but there are also 
structural forms. And when I say ``structural,'' I mean built 
into the law.
    So, take, for instance, on college campuses, the fact that 
we had to go to court in order to allow for precincts to exist 
on college campuses, affording young people the ability to 
vote.
    Take, for instance, in certain communities, that folks 
might be waiting an hour and a half to go and vote when, in 
other communities, where they are voting multiple times higher, 
can go in and in 15 minutes be in and out. It is a particular 
burden to folks who work 9:00 to 5:00 or may work an hourly 
job, who can't afford the opportunity to take time away or off.
    I would also say, from a structural standpoint, the fact 
that in the State of Florida ballots that are received after 
7:00 p.m. on election day cannot be counted even though they 
may be postmarked prior to election day--a structural issue 
that came to bear particularly here in South Florida, where we 
had a sort of maniac bomber who decided to send bomb threats to 
officials across the country, slowing down the delivery of mail 
systems here in south Florida, some of the heaviest Democratic 
county areas, and those ballots could not be counted.
    And in 67 counties where there is a disparity between what 
the law looks like in each of those 67 counties because of the 
way in which the elections are administered, a cure process in 
Miami-Dade or in Broward County may look very different than 
Osceola or Leon or Duval County, Florida, for example.
    Signature matching being another structural problem. The 
fact that you couldn't go before any judge or a court of law 
and challenge someone's signature without several experts being 
on record to say whether or not it was right or it was wrong. 
Yet, in counties all throughout the State of Florida, an 
individual with no formal training can, again, look at a 
signature and determine whether or not it is identical to the 
one that was filed on record 10 years before and invalidate 
someone's constitutional right to vote as a consequence 
thereof.
    I just wanted to use those as structural examples to 
systems that exist, that are in place, that have the impact of 
keeping people's constitutional right to vote----
    Mr. Loudermilk. Okay. I appreciate that.
    Mr. Loudermilk. I appreciate that. If I could just clarify 
one thing, Madam Chairwoman, since my time expired a while 
back. I just want to clarify, because I only have five minutes 
versus the 35 minutes because of the other members here.
    But to clarify your answer, Mr. Gillum, you are not opposed 
to legal purging of the voter database to remove those who are 
not eligible to vote?
    Mr. Gillum. I would say I don't trust the purging process 
in this State as it relates to----
    Chairwoman Fudge. Thank you.
    Mr. Aguilar.
    Mr. Aguilar. Thank you, Madam Chairwoman, and I appreciate 
your leadership with this Subcommittee. I am honored to be on 
the Subcommittee with you and Mr. Butterfield, and on the full 
Committee, and I appreciate the hospitality of the Florida 
delegation, and especially our host, Mr. Hastings.
    I wanted to get right into questions. Ms. Gonzalez-Eilert 
and Ms. Batista, language assistance clearly were two topics 
that you mentioned in your testimony, especially in the wake of 
Hurricane Maria. During the 2018 elections, there were signs 
that Florida was not going to assist Puerto Ricans displaced by 
Hurricane Maria with voting, and a Federal judge, in fact, said 
that in 32 Florida counties, in Rivera v. Detzner, must provide 
sample Spanish language ballots to help more than 30,000 Puerto 
Ricans who were displaced by the hurricane.
    According to the National Association of Latino Elected 
Officials, between 2012 and 2017, the number of eligible voters 
in Florida increased nearly 10 percent while the number of 
Spanish-speaking limited English proficient voters increased by 
24 percent. So Florida's compliance with applicable 
requirements is clearly a work in progress.
    What more can the State do to help the counties evolve and 
grow throughout that process? What is being done and what 
should be done from the State to the local communities to 
administer this fairly?
    Ms. Gonzalez-Eilert. Representative, to give you a little 
bit of background just to show, demonstrate, that in fact 
language access continues to be an issue, it was only in August 
2014 that the very first voter registration and voting guide 
was put together and released in Spanish. Clearly, this is very 
long overdue. After 2016, it was released on a regular basis.
    However, at the Division of Elections at the State level, 
we still have a website that is in English. And even though a 
couple of weeks prior to an election, there is a little one 
page that says this is in Spanish, you can go here; when you 
click on that Spanish link, it takes you to an English page, so 
you are not going anywhere. If the only option for folks at 
that point is to push Google Translate--I don't know if you 
have ever used Google Translate for another language. Sometimes 
it is gobbledygook, so it is not going to give you exactly what 
you want.
    What we would like to see, our recommendation, is that 
those pages be translated, all the pages be translated in 
Spanish and be made available with a URL that folks can look 
for in Spanish, and we believe that would make a huge 
difference.
    Mr. Aguilar. Ms. Batista.
    Ms. Batista. I agree with everything that she said. 
Particularly, we were part of the process to doing the 
translation for the voter guide last year. We worked closely 
with the League of Women Voters, and we translated it into 
Spanish. However, that took resources from our organization, 
and it is information that we need to provide to our 
communities.
    Like she mentioned, the wording in those amendments are 
legal wording. So a lot of when you do a Google Translate, the 
word will not translate accordingly or it will not make sense. 
And so when you read something in Spanish, usually it is the 
opposite of what you say in English. And so it is very 
difficult, it is very different, and even for me, I am 
bilingual, it is difficult to translate something in English 
into Spanish just knowing that I have to try and, like, go 
around it.
    And so that information needs to be provided to our 
communities in Spanish in a way that they are able to 
understand it, not only in Spanish, but in Creole and other 
languages that are necessary for our communities.
    Mr. Aguilar. Thank you so much.
    Mr. Gillum, I am not going to use my time to describe what 
an 8-track tape is, as Mr. Butterfield mentioned. I am 40 days 
your senior, and I am sure Mr. Deutch would have made that joke 
about me if you weren't here giving testimony.
    I wanted to talk briefly about voter intimidation. There 
were concerns in 2018 of aggressive and legally unsupported 
attempts to enforce voter ID requirements at polls and other 
election hearings, and I noticed that there was also a story of 
an elections official in Sopchoppy, a city in Wakulla County, 
of an individual who had failed to remain neutral, who the 
Department of Law Enforcement was investigating because of her 
questioning of residences with no reasonable basis. So there 
are stories like this all over that have been experienced.
    What is the State doing and what should the State be doing 
to ensure that poll workers understand the mandates and are 
administering them fairly?
    Mr. Gillum. I appreciate the question, Congressman. I have 
never obviously held the position of Supervisor of Elections or 
worked in one of those offices, but I could say pretty 
universally, and I think they have said this for themselves, 
their offices are under-supported from a resourcing standpoint. 
Our election system, largely in this country, particularly here 
in this State, and especially in parts of this State that are 
financially under-resourced, largely volunteer staffed. The 
training can be very disparate between one of the 67 counties 
to another.
    It is one of the areas under which we tried to get the 
legislature to really concentrate, and that is by trying to 
create an equal or an equitable system of access across the 
State of Florida. It shouldn't matter that if you are in 
Wakulla County, you get this kind of access and treatment.
    And I think in some cases, this leads to some of the 
disproportionate disqualifying of ballots based off a 
signature, because in some counties, the supervisor--they are 
small enough, the supervisor may know someone, maybe they are a 
more trusting area, and therefore, you can come in.
    Whether the signature matches or not is not a barrier to 
your ability to have your vote cast and counted, whereas in a 
county as a populous as the tri-county area, Miami-Dade, Palm 
Beach, Osceola, Orlando, Hillsborough County, where that kind 
of connectivity is not as likely, meaning the supervisor of 
elections and the people who are working in those offices don't 
necessarily know the person coming in, and therefore, you get 
treated differently.
    That is not how democracy is supposed to work. That is not 
how our system is supposed to work. So I would be a strong, 
strong advocate for, and I think the Supervisors would agree, 
to adequately resourcing the Supervisors of elections' offices 
and making universal the kind of training that takes place in 
each one of the 67 counties so that the outcomes with regard to 
how well trained a volunteer may be is not dependent upon how 
wealthy a county might be, but rather, made more universal and 
resourced more universally from the State standpoint.
    Mr. Aguilar. Thank you, Mr. Mayor. I appreciate the 
testimony of everyone.
    Thank you, Madam Chairwoman.
    Chairwoman Fudge. Thank you.
    Mr. Hastings.
    Mr. Hastings. Madam Chairwoman, thank you very much. And I 
am going to pass on asking questions or making any other 
statement. You gave me an opportunity, and I want to make sure 
that all us have ample time.
    I am concerned, and my colleague, Mr. Deutch, and I have 
been working for the last 2 months on the signature mismatch. 
And I want to make sure that you all understand that we heard 
Judge Walker's decision about how illusory our cure was, and so 
we are addressing it, and the great hope is that we will be 
able to undertake it.
    But in the interest of time, I will just yield my time.
    Chairwoman Fudge. Thank you very much.
    Mr. Hastings. Plus I don't want it to be political.
    Chairwoman Fudge. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chairwoman.
    Before my time begins, Madam Chairwoman, if I can just 
enter--ask unanimous consent to enter two items into the 
record.
    One would be the Florida Division of Elections web page 
that is headed ``Language Assistance for Voting,'' where it 
specifically says: Additionally, the following 13 Florida 
counties are specifically subject to Spanish language 
requirements, including providing oral and written assistance 
in election-related materials such as instructions, forms, 
ballots, and notices.
    And it lists the 13 counties, which does include Polk and 
this one and the other two South Florida counties as well, and 
about 10 others.
    Chairwoman Fudge. Without objection, so ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Wasserman Schultz. And the second document is one that 
describes specifically, respectfully to my colleague, Mr. 
Loudermilk, the specific evidence that discredits your 
indication that 3,000 votes suddenly mysteriously showed up in 
Broward County. That is not accurate, and I would like to enter 
into the record that those were absentee ballots that had not 
yet been canvassed and recorded, and they were legitimate 
ballots that simply came in on time but were unable to be 
counted by election night. So we did not have mysterious 
ballots that suddenly showed up out of the clear blue sky after 
Election Day.
    Chairwoman Fudge. Without objection, so ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Wasserman Schultz. Thank you. I appreciate the 
indulgence and----
    Mr. Hastings. Madam Chairwoman, I ask unanimous consent to 
restore the gentlelady's time to 5 minutes.
    Chairwoman Fudge. Without objection, so ordered.
    Ms. Wasserman Schultz. I appreciate the indulgence. Thank 
you so much.
    And to the panel, it is wonderful to be able to welcome you 
here, and to welcome our colleagues to Broward County for this 
critical issue of making sure that we can ensure the franchise 
is validated for every single person who is eligible to vote.
    Mayor Gillum, if I can just ask you a couple of specific 
questions. Given that our legislative session ended on Friday, 
and unfortunately, they made what I believe is an illegal 
decision to proscribe or interpret the voters' intentions when 
they passed Amendment 4, I have joined many others around the 
country in calling their decision what it is, to require all 
fines and fees and restitution and parole and any provision of 
their sentence to be completed before they can have their 
franchise restored a poll tax. It is, plain and simple, a 
requirement for payment in order to be able to exercise your 
right to vote.
    Do you agree with that assessment? And what impact will 
that have on restoring the voting rights of Floridians who have 
been granted that right by the voters? I want to ask my 
questions at once so you can answer them.
    Also, do you agree that sowing fear and confusion among 
voters is part of the motivation behind the legislature's 
attempt to thwart the clear will of Florida voters on Amendment 
4? And will this decision by the legislature exacerbate the 
disproportionate disenfranchisement of black Floridians? I say 
black because it is not just African Americans that are 
affected, because we have 20--more than 20 percent of black 
Americans in Florida are disenfranchised. It is unacceptable, 
and so that is my series of questions initially.
    Mr. Gillum. Yeah. Thank you very much, Congresswoman. Thank 
you for your service as well. Yes is the first answer on 
whether or not I agree with the assessment that this is a poll 
tax.
    Yes, I also believe that the intention here is to sow 
confusion. I also--and I don't--we can provide this as part of 
the 5 days that we may have available, but the Brennan Center 
for Justice produced a report that showed that when fines, 
fees, and restitution is added as criteria for reengagement and 
the ability to vote, that only 3 percent of returning citizens 
actually are able to satisfy that. If that statistic is 
translated into, in the case here in Florida, you are talking 
about 97 percent of people not being able to regain their 
ability to vote and participate in the election. That is almost 
nullification of what 64 percent of the people who went out and 
voted, Republicans, Democrats, Independents, non-party 
affiliates, because the truth is, all of us have somebody who 
has made a mistake in our family, someone that we know, and I 
think that led to, again, the overwhelming turnout of 
individuals in the State to participate.
    And you are absolutely right as it relates to the disparate 
impact that it will have on communities of color, particularly 
for black citizens who are represented at twice their 
population and the criminal justice system here in the State of 
Florida. I think one of the things that probably sent a little 
bit of a scare, possibly, to the Florida legislature is on 
January 8, when we began the process of re-registering voters, 
that we saw that people of color went out in droves to regain 
their right to vote. I read story after story where black men 
were coming out of the Supervisors of Elections' offices 
saying, for the first time in my life, I feel whole. For the 
first time in my life, I feel seen. That kind of efficacy and 
belief that you now belong is something that really can't be 
described.
    So this is not just about the vote. This is also about the 
ability to have agency over yourself and your community to 
participate in the process. What they have done at the Florida 
legislature sends an extremely chilling effect to people's 
ability to participate in the process, which I believe is not 
only antithetical to what was approved in November but also to 
the Constitution of the United States of America.
    Ms. Wasserman Schultz. Thank you very much.
    Madam Chairwoman, before my time expires, I just want to 
ask Ms. Batista. Have we seen evidence in the State of Florida 
of individuals who have been improperly purged from the voter 
rolls? And what laws or best practices could be put in place to 
ensure that registered voters who vote sporadically or chose 
not to vote at all don't lose their registration status?
    Ms. Batista. I am sorry. Can you repeat that one more time?
    Ms. Wasserman Schultz. Sure. Have we seen evidence in the 
State of Florida of individuals who have been improperly purged 
from the voter rolls? And what laws or best practices do you 
think could be put in place to ensure that registered voters 
who vote sporadically or choose not to vote at all don't lose 
their registration status?
    Ms. Batista. I don't know the answer to that question, to 
be honest with you. However, I could say that I know where 
there have been people that are residents that have received 
voter registrations in order to confuse them, and I believe 
that people should always have the right to go to vote and not 
be disenfranchised, so whereas they have to be registered to 
vote if they don't want go to vote within the last two 
elections. So they should definitely be given that chance to go 
vote and make their voice heard.
    Ms. Wasserman Schultz. Thank you.
    I yield back the balance of my time.
    Chairwoman Fudge. Thank you.
    Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairwoman. And thanks to the 
Members of the Subcommittee for joining the locals down here in 
Broward County and the city of Fort Lauderdale.
    Nearly 16 months ago, I visited the Politics Club at 
Marjory Stoneman Douglas High School. The students were bright. 
They were engaged. They were eager to talk about ways that they 
can improve their community and the country. It was 
unbelievably impressive. And that was a month before February 
14, 2018 when 14 of their fellow students and 3 staff members 
were killed in a mass shooting.
    I will never forget what those students spoke out about at 
that Politics Club and what happened since. They wanted to see 
change. They came down here to the courthouse steps at March 
For Our Lives, at townhall meetings. They registered voters. 
They did Get Out the Vote rallies in high schools here and 
around the country, on college campuses as well. Many of them 
were desperate to vote for the first time in their lives, just 
9 months after this horrific tragedy at their school.
    That is why this headline that was in The Washington Post 
recently was so disconcerting: Young Parkland voters' ballots 
were rejected at much higher rate than State average in 
November, research finds.
    Ronni Isenberg was at college when she saw the news of the 
shooting that killed one of her friends at MSD. That fall, 
after she learned that her mail-in ballot was rejected, she 
said: We wanted to make a change and vote for a change. I 
should have had the right to vote, and my vote should have been 
counted.
    According to research that has been done by the University 
of Florida, 15 percent of mail-in ballots submitted by Parkland 
residents between 18 and 21 were never counted in the midterms. 
Compare that to 5.4 percent rejection rate statewide for that 
same age group and a 1.2 percent statewide rejection rate for 
all ages. It is clear that the mail system, the vote-by-mail 
system needs some additional guardrails.
    Congressman Hastings, as he pointed out, and I are working 
on legislation to require two forms of notification to voters 
and 10 days at least to cure, and that would be something that 
would help. The State passed legislation that would help, but 
unfortunately, they couldn't help themselves in Tallahassee. 
They took legislation--they took an amendment that was 
overwhelmingly supported. Amendment 4 was the largest expansion 
of voting rights in this country, 1.4 million people since the 
end of poll taxes and literacy tests, and then the Florida 
legislature decided to take this legislation that was meant to 
help people cast their vote and put a poll tax on top of it. It 
is not within the text of the amendment. If is a far cry from 
the spirit of the amendment.
    And, Madam Chairwoman, what we would ask that you take back 
with you is the understanding that this is not just Florida 
politics. This is not just frustration. This is a rejection of 
the democratic will of the people of this State. That is what 
Congress needs to understand.
    So I would just--I would ask first--I would ask first, 
Mayor Gillum, if I may--and thanks to all our witnesses for 
being here. Thanks for your excellent testimony.
    Mayor Gillum, if you could tell us if you are aware of any 
efforts that the State has made to investigate these 
disparities, the number of young people whose votes weren't 
counted. And then if you could also tell us what your 
organization is doing to continue to retain the excitement and 
the enthusiasm that so many young people have heading in, 
despite the fact that they just experienced this in the last 
election, heading into the next election.
    Mr. Gillum. Thank you, Congressman, and thank you for your 
leadership, obviously, in this area. As you already pointed 
out, 15 percent--it is estimated 15 percent of 18- to 21-year-
olds in the Parkland area specifically did not have their votes 
counted in the 2018 election, far above the State average and 
the State rates. Broward County by itself had a rejection rate 
of, as I think I provided in my testimony, 2.8 percent of vote-
by-mail ballots, again, above the State average of 1.2. And the 
State average is above that of the two previous Presidential 
elections, just looking at 2018 as an example.
    Unfortunately, Congressman, the State legislature has not 
gone in the right direction here. In fact, we have gone in the 
opposite direction. The fact that we had to bring litigation in 
order for students to be able to vote on college campuses I 
think is testament enough to the fact that the legislature, 
those in power, are not interested in introducing an element of 
young people, certainly not easily, into the elections and the 
democratic process.
    As it relates to the work that we are engaging here in 
Forward Florida, we are undertaking an effort to bring a 
million new voters and reengage a million new voters in the 
system here in the State of Florida. Today, 4 million people in 
Florida are eligible but unregistered to vote. Four million. We 
believe that we can do better. We have seen precipitous 
decline, quite frankly, in areas that are really, really 
important to see increase when it comes to registration.
    So as much as Florida is getting more diverse, it isn't 
necessarily being represented, one, in who is voting, and two, 
in who is registering to vote. So it is our intention to go 
about all 67 counties. Again, red areas, blue areas, purple 
areas, no color areas, to engage as many people in the process 
of registering as we possibly can.
    The problem becomes--there are many of them--but if folks 
don't believe that their votes will be counted, that if they go 
about the process of getting registered and then we have 
situations like we saw in this in election and we have seen in 
previous elections, where folks don't have confidence that even 
if they wait the 45 minutes, if they wait the hour and a half 
to go and vote, that they walk out of there not believing that 
their vote is going to be counted. It is a real--it has a real 
chilling effect, particularly when you are working with 
communities who find themselves at the margins of society. They 
may as well continue to go to work and not participate in the 
process if they conclude that their vote won't count anyway.
    So not only are we fighting the laws that are on the books, 
we are also fighting the impacts of those laws that show up 
every election cycle where folks, again, don't have faith in 
the process and don't have faith that their votes will count.
    Mr. Deutch. Thank you very much.
    Thank you, Madam Chairwoman.
    Chairwoman Fudge. Thank you.
    Ms. Wilson.
    Ms. Wilson. Thank you, Madam Chairwoman, and welcome to our 
part of the State, Miami-Dade County. I am so pleased to have 
our panel here.
    I just have a couple of clarifications. I just want to give 
you a little update on the voting rights history in the State 
of Florida. There was a time in the State of Florida when I 
served in the legislature that people's--felons' rights were 
restored, and the rights were restored under Governor Charlie 
Crist after the Legislative Black Caucus filed a lawsuit under 
former Governor Jeb Bush, won the lawsuit, and we began to 
restore the rights to felons.
    They were being restored up until the point that Rick Scott 
was elected as Governor. When he was elected as governor, he 
decided that in order for a felon to have his rights restored, 
it must be a majority of the cabinet, his cabinet, voting for 
it, and of course, we know that the entire cabinet was 
Republican. So everyone who tried to have their rights 
restored, they were denied. So consequently, we have this 
constitutional amendment.
    So when a lawsuit is filed against this constitutional 
amendment, which I am sure that many organizations will file, 
including the NAACP and some of our activists here who 
represent different organizations, they can use as evidence 
when we were restoring rights to felons, we did not require 
that all of the fees be paid.
    So that is not the history of Florida. The history of 
Florida was when you complete your sentence and you leave 
prison your rights would automatically be restored. So not only 
is that a poll tax, but that is illegal, and that is against 
all the rules and laws and the history of the State of Florida.
    And it is not--I don't want anyone to think that this is 
just a Black issue, because when I was in the State 
legislature, I had a group come from a small town in Florida, 
and they wanted their rights restored. And we were helping them 
get their rights restored, because they only had 15 people in 
the city who could serve on a jury, because everyone had a 
criminal record in the whole town, and it was a total White 
town. So just keep that in mind.
    And it also has been brought up about the prison, people 
voting from prison. And we know that the Census already 
disenfranchises cities or all of us with the Census being taken 
in prisons and causes the prison towns to get all of this 
money. But just keep in mind, and this is for the record, if 
you are in jail, if you are in jail and you have not been 
sentenced or you have not seen a judge to sentence you, you 
have the right to vote.
    So it is the job of the public defender to make sure that 
everyone who is being held in jail votes just like everyone 
else, because they are still citizens. Some of them are 
registered voters, and there are organizations that should be 
doing active voter registration in jail while people are 
awaiting their sentences.
    And also, in the State of Florida, in many of our counties, 
our children--and I have a bill that I filed in Congress to do 
this for everyone, give everyone the opportunity to do this--
our 11th graders in their American history classes are 
registered to vote by the Department of Elections. I see Ms. 
Snipes here, and I think they do it in Broward and Dade. I 
started it when I was on the school board of Dade County. And 
automatically when they turn 18, they are issued a voter 
registration card. So that is something.
    And I also wanted to bring up ballot design, because I feel 
so terrible about what happened to Senator Bill Nelson right 
here in my district in Florida, which takes up West Park and 
parts of Hollywood. Because of the ballot design, and Senator 
Nelson was at the bottom by himself with Rick Scott, and I was 
not on the ballot because I did not have an opponent. So many 
of the constituents of that district did not vote in that race. 
They went all the way up, and thank God they found you, Mr. 
Gillum, and voted for you. It came all the way down. But there 
were enough votes to cost him the election.
    So the ballot design that we must put in place is so 
important, Madam Chairwoman, and I just wanted that to be in 
the record. Thank you. I yield back.
    Chairwoman Fudge. Thank you.
    I am just going to really ask one question of Ms. Bastien, 
and then we are going to move to the next panel.
    How many Haitians are in Florida, do you know?
    Ms. Bastien. So the estimate is over 1 million in Florida, 
but half a million are registered to vote.
    Chairwoman Fudge. And what percentage, do you know, of the 
half million, what percentage, actually vote?
    Ms. Bastien. I don't have that information, unfortunately. 
But one thing that I can tell you is that, historically, there 
has been a lot of efforts to suppress the Haitian vote because 
most of us are immigrants.
    And during the 2000 elections, for example, a lot of the 
big suits that I had mentioned earlier, forgive my French, came 
to present where a lot of Haitian Americans voted, so they have 
been targeted because they know many of them are recent 
immigrants, and they are afraid and they are scared. Just like 
some of the narratives today are preventing some folks to vote, 
because even though people are U.S. citizens, if they hear 
information from the administration that indicates that they 
may be targeted or that they are not supposed to vote, even 
though they are U.S. citizens, this is a way really to suppress 
the vote.
    Chairwoman Fudge. Thank you.
    I am going to yield a minute to Ms. Wilson to ask a 
question, and then we will have closing statements.
    Ms. Wilson. Yes. I just want to reiterate what Ms. Bastien 
has said. We have never had an election in Miami-Dade County 
that our office did not get a call about someone suppressing 
the vote of the precincts that are in majority Haitian 
districts, and we have always had to send people out. We have 
always had to call for help. We have always had to do that.
    And I just want to say to Marleine--and we have been trying 
to do this, but there is a pride issue in this--is in the State 
of Florida, another thing Jeb Bush did was he took away all 
requirements for absentee battles, so an absentee ballot is 
just like a piece of toilet paper. You could get an absentee 
ballot, you don't need an excuse.
    So we have been trying to say to everyone who was 
disenfranchised or everyone who has to work or everyone who 
finds it hard to vote, because these amendments in Florida are 
getting longer and longer, and it takes--I mean, it takes time 
to go through all of these and know how and what to vote for, 
that we encourage people to get an absentee ballot.
    And the ballots in Dade County are in three languages. You 
have to read English, Creole, and then Spanish. So that makes 
the ballot three times as long as any other ballot in any part 
of this State.
    So we are going to work with Marleine to get that done, to 
get them all absentee ballots, so they can sit down, study the 
ballot, know how to vote, take it into a polling place, take 
someone--I mean, send the ballot off so we won't have to--you 
know what I am saying.
    Thank you.
    Chairwoman Fudge. Yes. Thank you.
    We do have a second panel, so we really need to wrap this 
up.
    Mr. Loudermilk, if you have a few closing remarks, and then 
we will be ready to bring our next panel up.
    Mr. Loudermilk. Thank you, Madam Chairwoman.
    Again, thank you for hosting these events. I thank everyone 
on the panel. Some great information in here.
    Let me also address something. I appreciate the correction 
and information from my dear colleague, Ms. Wasserman Schultz, 
on the information, because part of what we are trying to do 
here is to parse out fact from perception. And if the 
information that she has provided is true, and I have no doubt 
to think that it isn't, and my apologies to her and Mrs. Snipes 
for the information there. As we all know, you can't always 
rely on press reporting on things, even if it is from The New 
York Times. So my apologies there.
    But still, we are dealing in a time where we have to figure 
out what is human error versus discrimination. And more 
importantly, of all the issues that were brought up here, I 
think Mr. Gillum made the point very well that what makes sense 
in one county may not make sense in another area, and that is 
why I have caution and pause for having Washington, D.C. 
bureaucracy so involved in an election process, because one 
size does not fit all.
    And I am encouraged from being here from a lot of your 
testimonies. I know a lot of you have been working, as Ms. 
Batista has in the community to increase Latino vote. In fact, 
in this year, the midterms election this year--or last year in 
midterms elections, the Latino vote doubled from the previous 
midterm nationwide, and that is as an effort of many of you 
being out in the community. And voter registration has gone up. 
The African American vote has increased by 10.8 percent, and so 
it is--the engagement in the community is working.
    I am also encouraged by some of the information that Mr. 
Gillum brought up, and my understanding is that a lot of those 
issues are being addressed in the latest bill that recently 
passed, a bipartisan bill that passed in the Florida 
legislature. And so, hopefully, a lot of those issues would be 
resolved, as well as the confusing ballots.
    My understanding in that bill also included requirements 
for ballot design that would avoid the confusing ballots like 
we saw here in Broward County in 2018, as well as one of the 
issues that got my attention was the access to assistance in 
Spanish ballots. And from what I understand, the current 
governor has ensured that there will be assistance in Spanish 
ballots in all 67 counties by the next election.
    So from what I have gathered here, Madam Chairwoman, I 
think a lot of the work is being handled at the State level, 
which I think is the best, is the most responsive, and I 
appreciate the chance for us to hear from the community.
    And thank you. I yield back.
    Chairwoman Fudge. Thank you.
    And I would just say just a few things as I have listened. 
I know that my colleagues want to justify that everything is 
okay because more people voted. Because we overcome roadblocks 
doesn't mean that it was right to put the roadblock there in 
the first place. If we call ourselves a democracy, we need to 
act like it. We need to ensure that every single person has a 
right to vote and that their vote is counted.
    As a Member of Congress, I was sworn to uphold the 
Constitution of the United States. The Constitution does not 
say if you miss a vote, we are not going to let you vote 
anymore. The Constitution does not say if you miss two votes, 
we are not going to let you vote anymore. It says that you have 
a right, an unfettered, unabridged right to vote in this 
country if you are a citizen.
    Also, I am a lawyer. I took an oath to uphold the 
Constitution of my State, the laws of the State and the laws of 
the United States, and what I know is that laws are not always 
just. Laws are sometimes made by very flawed people who are 
doing things in their own self-interest, just as this 
legislature in this State has done as it relates to Amendment 
4.
    I understand that purging may be the law of the land. It 
doesn't make it right. Separate but equal was the law of the 
land. It wasn't right, but Brown v. Board of Education changed 
it. People walked across the bridge for the right to vote. The 
law was not on their side, but the law was not just.
    And so I think that what we have to understand is that even 
though States have a right to do certain things, I mean, we do, 
as a Federal body, have oversight on Federal elections. But I 
would also suggest that the history of this country as it 
relates to State rights has not been very good to poor people 
or to people of color or to people who are sick or to people 
who do not have the mental capacity to survive.
    And so with that, I would say that we are going to do 
whatever we can together, Democrats and Republicans, to be sure 
that as people who love their country, we make sure that every 
other person that loves their country has the right to 
determine how this country is run.
    So I thank my colleagues for being here. And we are going 
to start our next panel.
    I thank you all so very, very much. It is a pleasure to 
have had you here. Thank you.
    [Recess.]
    Chairwoman Fudge. On our second panel, we will hear from 
Mr. Juan Cartagena, President and General Counsel, 
LatinoJustice PRLDEF. Mr. Cartagena is a constitutional and 
civil rights attorney who is the President and General Counsel 
of one of the Nation's leading civil rights public interest 
legal organizations that represents Latinas and Latinos 
throughout the country and works to increase their entry into 
the legal profession.
    Karen Wilkerson, the League of Women Voters of Florida. 
League of Women Voters of Florida has been fighting to make 
democracy work for all Floridians since 1939.
    My good friend, Ms. Judith Browne Dianis, Executive 
Director, Advancement Project. Ms. Dianis has an extensive 
background in civil rights litigation and has protected the 
rights of people of color in the midst of some of the greatest 
civil rights crisis of our modern times, including in Florida 
after the 2000 election.
    And Mr. Logan Churchwell, Communications and Research 
Director, Public Interest Law Foundation, a 501(c)(3) public 
interest law firm.
    Mr. Cartagena, you are recognized for 5 minutes, sir.

  STATEMENTS OF JUAN CARTAGENA, PRESIDENT AND SENIOR COUNSEL, 
 LATINOJUSTICE PRLDEF; KAREN WILKERSON, LEAGUE OF WOMEN VOTERS 
     OF FLORIDA; JUDITH BROWNE DIANIS, EXECUTIVE DIRECTOR, 
 ADVANCEMENT PROJECT; AND LOGAN CHURCHWELL, COMMUNICATION AND 
      RESEARCH DIRECTOR, PUBLIC INTEREST LEGAL FOUNDATION

                  STATEMENT OF JUAN CARTAGENA

    Mr. Cartagena. Thank you so much.
    And on behalf of Latino Justice PRLDEF, I want to thank 
Chairwoman Fudge and all the Members of the Subcommittee, all 
the other Members of Congress who are at this hearing. Thank 
you so much for this invitation to allow me to share some 
observations on this topic of election administration in 
Florida.
    So Latino Justice PRLDEF, PRLDEF is an acronym for our 
former name, the Puerto Rican Legal Defense and Education Fund. 
Over 46 years of life since 1972, plus working on behalf of 
Latinos and Latinas throughout the country, we are a public 
interest law organization, and as a result, as you can imagine, 
given the demographic change of Florida over the last 20 years, 
Florida has been a base of our operations as well.
    I have personally litigated cases here in Florida's Federal 
courts on Section 2 of the Voting Rights Act, of the National 
Voter Registration Act, and I currently supervise the Rivera 
case that was referred to before that currently is pending 
against 32 counties in Florida for alleged violations of what 
is called Section 4(e) of the Voting Rights Act.
    My office has been doing cases in this State for over 10 
years, and we for over 5 years have had a physical presence in 
Orlando, Florida, in an office, our southeast regional office.
    Florida occupies a unique place at this point in our 
history in the country with respect to election administration, 
a lot of it to do with the amazing energy and the zeal that 
voters have in the State who participate. But we also know that 
it is a change in demographic environment. Florida is now the 
third largest State in the country. It just edged out New York 
State, where my headquarters is located, in the last couple of 
years. Not only is it the third largest State, it is now 
estimated to be about 21.3 million residents in the State of 
Florida. They have the second largest rate of growth behind 
Texas, added 322,000 residents in just the last year alone, 
between 2016 and 2017.
    But Florida's Latino population is also changing 
dramatically, and that is a very specific area of concern for 
my office at Latino Justice, as you can imagine. Based on the--
there are about 5.4 million residents in the State of Florida, 
of that 21 million that I mentioned before, that are Latino. 
Census data now demonstrates that the Puerto Rican population 
is well over a million people in the State, and grew about 30 
percent alone since 2010. That is significant given the Puerto 
Rican evacuation of Puerto Rico both before Hurricane Maria, 
because of the fiscal crisis, but exacerbated by Hurricane 
Maria post.
    Cubans are still the plurality among all the Latinos in the 
State. They are about 28--no. Excuse me. Yes, 28 percent of the 
population, and Puerto Ricans are now 21 percent of the 
population in Florida. It is a change in the demographic scene.
    I say all that--and of course, data showing that the white 
population is plateauing, if not declining. The median age of 
white folks in Florida is increasing by far. In fact, Florida 
has the largest percentage of senior citizens of any State in 
the country, well over 20 percent.
    So we are looking at demographic changes that make it a 
particular hot battleground State. That is on top of what we 
all know are very, very close elections in Florida, right? That 
was referred to in part by the previous panel.
    My first conclusion for you is that from the perspective of 
both Latino and African American voters in Florida, the ability 
to exercise our Constitutional rights to the franchise has 
been, will be, tested repeatedly in the State, where seemingly 
every result is contested in an environment of rapid economic--
excuse me, rapid demographic growth.
    I want to end my time with just two points. The first one 
is language assistance. You heard quite a bit of that in the 
first panel. We are the lawyers among other lawyers, Demos and 
others, SEIU and others, who are actually challenging the 32 
counties for lack of assistance with respect to Puerto Rican 
voters.
    Now, this overlapping Federal law that requires assistance, 
this section 203, which has numerical thresholds that deal with 
people of various language backgrounds, and it applies, as was 
mentioned before, I believe, by Representative Wasserman 
Schultz, that applies to about seven to eight counties already.
    Section 4(e) is a provision of the 1965 Voting Rights Act. 
That is how long it has been on the books, and it prohibits 
conditioning the right to vote to any Puerto Rican educated in 
Puerto Rico who does not understand English. Simple as that. It 
applies nationwide, and it applies to every Puerto Rican living 
in the United States.
    As a result, one of the first things I want to share with 
you is a quick quote from the judge, Judge Walker, in that case 
in which he said, quote, it is remarkable--this is, by the way, 
in 2018. ``It is remarkable that it takes a coalition of voting 
rights organizations and individuals to sue in Federal court to 
seek minimal compliance with the plain language of a venerable 
53-year-old law.''
    I first ask the Subcommittee and all Members of Congress to 
recognize that these are laws, and the will of Congress is 
being thwarted in so many ways that this hearing is so 
important to make sure that we get to the bottom of why these 
things happen.
    But Rivera v. Detzner, now called Rivera v. Lee because of 
the change in the Secretary of State's office, is simply asking 
for one very important thing: full access in Spanish. There is 
a current motion pending that asks for the following things: 
That all election materials, including paper ballots, voting 
machine ballots, sample ballots, absentee ballots and 
envelopes, voting guides, voting instructions, polling place 
signage, election-related websites, and registration materials 
are provided in Spanish as well as English. In addition, the 
court is being asked to provide all assistance for voter 
registration, absentee ballot, and voting at early voting sites 
and polling places for election post August 1.
    It is true, and I refer to the fact that it was referred to 
earlier today, that there is a change now afoot to try to force 
every county to have Spanish ballots in each of the 67 
counties. That is a proposed rulemaking that was just announced 
recently in April of this year. We are concerned whether the 
specificity is part of that, and we are very concerned about 
whether that specificity is there.
    I will end with voter purging, but I would be more than 
happy to talk about this in the question and answer. We will 
also partner with the Advancement Project in challenging the 
purge of alleged noncitizens here in Florida. It was done in 
violation of the National Voter Registration Act, and we think 
that is also another example of how election officials are 
looking to suppress the vote of both Black and Latino voters in 
the State.
    Thank you.
    [The statement of Mr. Cartagena follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you so much.
    Ms. Wilkerson.

                  STATEMENT OF KAREN WILKERSON

    Ms. Wilkerson. I am Karen Wilkerson, and I am speaking on 
behalf of the League of Women Voters of Florida. The League 
believes that voting is a fundamental right protected by our 
U.S. Constitution, and any attempt to suppress votes is an 
invasion of our democracy.
    Several years ago, Florida produced the purge list, that 
included the names of rightfully entitled voters. This was a 
shameful act that should never happen again. Nothing can 
justify these types of actions. In Florida, the League has been 
certified as a third party to register voters, and we take this 
responsibility seriously and make sure that we train our 
workers well.
    Being able to vote by mail is an important of our State 
because of our rural communities and the number of older 
citizens living in Florida. Only a few counties pay the return 
postage on these ballots. The number of voters requesting to 
vote by mail is increasing every year. We seem to have very 
long ballots with lots of proposals to amend the State 
constitution and approve local taxes, et cetera. Therefore, 
voters don't want to make these decisions after waiting in long 
lines with only a few minutes in the voting booth. Often these 
issues are complicated, so the use of the mail-in ballot 
ensures that people can have time to read the proposals and do 
homework in order to educate themselves before casting their 
votes.
    To assist voters, the League prints and makes available 
digitally a publication called Voter's Guide, which provides 
voting information, pros and cons on proposals, answers from 
candidates on the hot topics. I should add that we do publish 
this in Spanish and are exploring whether we can do it in 
Creole. We hope we will make partnerships with some of the 
school districts that have the translators.
    We also hold candidate forums throughout the State so that 
voters can get to know the candidates. We hold forums on 
judicial candidates as well.
    Our organization is nonpartisan. We never endorse a 
candidate or a political party. It would certainly help if the 
municipalities, the county, and the State governments assisted 
in the funding of these types of voter education publications. 
We also cover the State with presentations from our speakers' 
bureau, which presents the pros and cons of all the proposals 
that are up for consideration.
    Right now, the signature of mail-in ballots is a check for 
validation. I think it is time to select a more efficient 
method, perhaps the UPS code or the last part of your Social 
Security number. There has to be a better system than what we 
are using now.
    We strongly believe that voting machines must have a paper 
trail. We support the use of early voting sites and extended 
hours at election locations. In Palm Beach County and many 
other counties in Florida, the supervisor of elections has 
located voting machines in elderly living facilities and 
homeowners' associations of our large developments. We commend 
these moves.
    Confusion occurs when early voting sites are not available 
for voting on election day. Long lines are particularly 
troublesome in Florida. You know our primaries are in the 
hurricane season. We are apt to have hot temperatures, rain, et 
cetera. We have a lot of people waiting outside the polling 
locations. I do remember one Presidential election where I 
waited 4 hours. Some community groups try to assist by bringing 
folding chairs for the elderly and infirm and offer water to 
those bearing the hot temperatures.
    Perhaps it is time to explore other types of venues for 
voting. Enclosed shopping centers are air-conditioned, they 
have adequate parking, and they are open for long hours. No 
doubt we will be considering digital voting in the future, and 
I would hope a committee like this would take that into 
account.
    Florida has just passed legislation to ensure that the 
format of ballots will more easily be instituted by the voters. 
We have had instances where the instructions interfered with 
the candidate selection process. Hopefully that has been cured.
    I personally find it strange to understand why the voting 
machine industry has such an impact on us. It would make more 
sense for the election officials to decide what functions are 
needed and then to have the industry to design those machines 
that are needed.
    Perhaps the most visible trouble spot in voting is the 
electoral college. The myth that this system was designed to 
protect small population States is certainly contradicted by 
the Federalist Papers that clearly read this design was to make 
sure that the elite controlled the polls. The League of Women 
Voters of the United States supports the present campaign to 
move to a national popular vote for President. It is important 
that the person selected to be President of our great Nation is 
elected by a majority of the voters.
    Let's face it. If a foreign country used our present 
system, we would condemn it, and we would send the Jimmy Carter 
or the Ronald Reagan Foundations over there to straighten 
things out.
    Please help us in making sure that your vote and my vote is 
counted to select the person to serve in the most important 
office in our country. The national popular vote is a reform 
that is being adopted by the States. We have now approximately 
190 electoral votes that will go for that, and we only need the 
magic number of 270.
    You have received some written comments from Susan Booker, 
who is a Supervisor of Elections in one of our State's largest 
counties. I hope you will look at her comments.
    Thank you for the opportunity to participate in this 
hearing, and I thank you very much for coming to Florida.
    [The statement of Ms. Wilkerson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you.
    Ms. Browne Dianis.

               STATEMENT OF JUDITH BROWNE DIANIS

    Ms. Browne Dianis. Thank you, Chairwoman Fudge and Members, 
for having me here today. My name is Judith Browne Dianis, and 
I am executive director of the national office of The 
Advancement Project. We have been proud to work on behalf of 
and beside groups on the ground here in Florida, including New 
Florida Majority, Dream Defenders, NAACP, Florida Rights 
Restoration Coalition, and SEIU, among others.
    My work here in Florida dates back to the 2000 election. 
Congressman Loudermilk, I can tell you that I have been here 
for that long doing voting rights work, and I can tell you that 
this is not about mistakes and accidents, but instead, that 
there are structures that have been put in place in the State 
of Florida to make it harder to vote for people of color.
    I can also tell you--that this is not about Washington 
bureaucracy reaching its hand down to Florida, but instead, it 
is about civil rights laws that come from the U.S. 
Constitution, namely, the 13th, 14th, and 15th Amendments, 
among others.
    For the last 20 years, I have seen what has happened in 
Florida. While other people were looking at hanging chads, my 
team was investigating and gathering evidence of voting 
irregularities that made it disproportionately more difficult 
for voters of color to exercise the right to vote. After the 
dust cleared in the Bush v. Gore case, we filed a lawsuit, and 
we have filed half a dozen others in the ensuing years 
advocating with election officials and lobbying lawmakers.
    Ever since that chaos in 2000, Florida has continued to be 
the battleground for access to the polls and with regard to 
matching and purging, we have seen again that the State gets it 
wrong. In 2006 and 2007, Florida's law disenfranchised tens of 
thousands of otherwise eligible voters disproportionately; 
Latino, Haitian Americans, and African Americans. During this 
period, 65 percent of the unmatched rejected applications were 
Latino or African American, even though Latino communities 
comprised only 15 percent of the applicant pool, and African-
Americans, 13 percent.
    That happened again in 2012. Florida employed, again, 
another yet flawed data matching process when it used faulty 
and outdated motor vehicle and immigration databases as a proxy 
to remove noncitizens from the voter rolls in advance of the 
2012 elections, a move that instead wrongly targeted thousands 
of eligible citizens and voters.
    In 2012, we joined forces with Latino Justice and other 
partners to stop Florida's mass purge. Our research found 87 
percent of the people on Florida's purge list were people of 
color, and more than 50 percent were Latino. Again, these were 
not mistakes, but as Congressman Butterfield knows, like in 
North Carolina, these were practices and policies put in place, 
surgically crafted to hurt voters of color.
    After the 2000 Presidential election, the other thing we 
saw was expansions in early voting and court injunctions 
allowing increased opportunities for voter registration, 
improved access to the ballot box. Voters, particularly voters 
of color, used early voting in high numbers in the 2008 
election. By then, those measures came under--attack. In 2011, 
Florida lawmakers passed HB 1355 that cut early voting and 
eliminating the final Sunday before Election Day, placing 
onerous restrictions on third-party voter registration also.
    Social scientists concluded that the law's restriction had 
caused a precipitous drop in voter registration. The law's cuts 
to early voting led to long lines and massive wait times on 
Election Day.
    You may remember the story of a woman, Desiline Victor, 102 
years old, a story that we lifted up. This Haitian American 
woman stood in line for 3 hours to vote. It was due to the cuts 
in early vote. The polling place in North Miami at North Miami 
Library is now named after her.
    Florida also employed other flawed data matching, including 
using the SAVE database. Keep in mind, this all happened before 
the Shelby County case. More recently, Florida has opened 
access to voting, when 64 percent of voters approved Amendment 
4 due to the work of the Florida Rights Restoration Coalition, 
Desmond Meade, and others in the country. We are proud to be a 
founding member of that.
    Florida was among four States that permanently denied civil 
rights to every citizen with a felony conviction. Ten percent 
of Florida's voting age population was excluded from voting, 
and one in five African Americans in the State was denied the 
right to vote. In advance of the 2018 election, we released 
Democracy Disappeared. We have republished it as Democracy 
Rising, which shows the impact on Black communities of this 
disenfranchisement.
    Unfortunately, the State moved very quickly after the 
voters approved this amendment by deciding to roll it back. 
These newfound rights are under attack when Florida lawmakers 
just days ago voted to undo the will of the voters. Section 5 
would have stopped this action in its tracks.
    One of the things that we know about Section 5 is that it 
is important to have these protections in place, because as we 
learned in Florida, it is too late after the vote is taken and 
counted to protect the civil rights of people of color.
    Lastly, Florida is now moving to aggressively purge voters. 
An estimated 7 percent of voters have been purged in the past 2 
years, and the problem is that the Federal Government is not 
watching, that the fox is not watching its brother the fox 
watches the hen house. And so now we see these attacks 
continuing to happen. We know that Congress must act to make 
sure that voting rights are protected for the people of Florida 
and elsewhere in our country. And I thank you and call on 
Congress to act quickly.
    Thank you.
    [The statement of Ms. Dianis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you.
    Mr. Churchwell, you are recognized, sir.

                 STATEMENT OF LOGAN CHURCHWELL

    Mr. Churchwell. Chairwoman Fudge, Members of the 
Subcommittee, thank you very much for this invitation to 
participate in today's hearing. My name is Logan Churchwell. I 
am the Communications director for the Public Interest Legal 
Foundation, a nonprofit law firm dedicated to election 
integrity.
    I would first like to thank this body for holding 
discussions about the Voting Rights Act of 1965 around the 
Nation. The current protections of the VRA are a success story 
that has done a tremendous job in eliminating racial 
discrimination in voting. Section 2 has proven to be an 
effective tool to combat barriers to the ballot box and protect 
the ability to elect representatives of choice. Because of the 
VRA, it has never been easier to register and vote than it is 
in America in 2019.
    Contrary to assertions without evidence by some, the VRA 
was not gutted by the Supreme Court in 2013. Activists and 
political candidates campaigning on reinstating the law are 
fearmongering, fundraising, or both. 2019 is not 1965. The 
heavy hand of Federal micromanagement in State election law was 
justified in 1965. It is not in 2019.
    The VRA was originally designed to operate on two tracks. 
First, the law empowers the Justice Department to provide 
parties to challenge States' procedures on the basis they were 
enacted with a racially discriminatory intent or had racial 
discriminatory effects.
    Second, the preclearance provisions in 1965 were an 
extraordinary exercise of Federal power that required approval 
of any election change in jurisdictions with deep histories of 
racially discriminatory behavior. Preclearance obligations 
were, in part, Constitutional because they had an expiration 
date. Congress continued to expand the power beyond its 
Constitutional shelf life, however.
    Unfortunately, preclearance power became a power that was 
abused. From South Carolina voter ID to Georgia redistricting, 
Justice Department lawyers exercised powers they did not 
possess by blocking States' laws that were neither 
discriminatory in purpose or effect.
    Section 5 in 2006 also flipped evidentiary burdens on 
subject jurisdictions to prove they were not discriminatory 
with each procedural reform. This concept of guilty until 
proven innocent is inherently un-American, and the Supreme 
Court took note of it in Shelby County v. Holder.
    Whether the old preclearance regime can fully be credited 
for the actual progress made in creating a more just voting 
system, history will show that the program had a proper time 
and place, and that time has passed. I contend to this body and 
the general public that trying to resuscitate 20th century 
style preclearance will prove an inefficient use of Federal 
resources and will always be at least one step behind emerging 
population and demographic trends.
    Targeted affirmative enforcement of the VRA is the way of 
the future. Perhaps the American people need a reminder of the 
tools available under the law. Section 2 can be used to 
confront almost any discriminatory hurdle in its wake, from 
classic poll taxes to vote diluting maps and even tribal 
lineage tests on voter participation. This section can help any 
affected eligible voter anywhere.
    Section 11(b) addresses efforts to intimidate or coerce 
voters. Some elements of the law can protect those that are in 
need of bilingual ballots in election administration, and 
finally, preclearance is still possibly where it is needed.
    For those arguing that affirmative enforcement of the VRA 
is too slow, they need to take a closer look at the case record 
provided by the DOJ. The lull in actions became apparent during 
the Obama administration but well before Shelby County. The DOJ 
sat largely dormant for 8 years, barely enforcing Section 2. It 
is reasonable for any fair-minded person to infer that if the 
Department did not bring very many cases under the Voting 
Rights Act, that not many cases of racial discrimination must 
have existed.
    Worse, based upon several reviews of the DOJ, the voting 
section hardly seems--as we know it today, the voting section 
hardly seems the proper place to vest so much extraordinary 
power. Section 5 lends itself to abuses of power, and the unit 
in charge of enforcement has exhibited rank ideological bias in 
the recent years.
    It is crucial that the Trump administration set a tone for 
what litigation-based enforcement of the Voting Rights Act will 
look like. But without some cultural shifts within the DOJ, 
enforcement will remain stagnant. If preclearance is returned, 
it will certainly again become abusive.
    We offer a simple, yet potentially substantial conversation 
starter for how the Trump DOJ can modernize enforcement of the 
VRA, and it probably won't even require an act of Congress.
    Decades of preclearance no doubt served to physically 
cloister Federal attorneys and staff, sometimes thousands of 
miles from the civil rights fires they were entrusted to douse. 
The administration should seriously consider breaking up and 
physically scattering the Federal voting rights monitors on a 
permanent basis so they can better embed within their 
communities. Physical presence can carry a whole new outlook on 
civil law enforcement that improves both monitoring and 
responses to emerging threats.
    We are doing our Nation a disservice if we let nostalgic 
laments for the old preclearance system cloud our ability to 
innovate civil rights strategies going forward. Know this: If 
too many voices claim the Voting Rights Act is gutted, bad 
actors will always find a way to take advantage.
    I thank you for this invitation to testify and submit the 
remainder of my remarks for the record.
    [The statement of Mr. Churchwell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you very much.
    Mr. Butterfield, you are recognized for five minutes.
    Mr. Butterfield. Thank you very much, Madam Chairwoman.
    Mr. Churchwell, let me just address one or two questions to 
you, and perhaps I may have a little time left when I can get 
to the other witnesses. But in any event, I thank all you for 
your testimony today.
    You seemed to suggest that we should continue with full 
enforcement of Section 2 but not have the benefit of Section 5 
as we know it. Is that correct?
    Mr. Churchwell. Yes, it is, Congressman.
    Mr. Butterfield. Tell me, if you know, the expense 
associated with Section 2 litigation. Is it not a very, very 
expensive thing to litigate a Section 2 claim in Federal court?
    Mr. Churchwell. Congressman, any litigation can become 
expensive, but the greater question we need to ask here is 
let's take a look at the expenses over the lifetime of 
preclearance and look at the record held by the Justice 
Department.
    Mr. Butterfield. I am talking about plaintiffs' litigation 
expense, private plaintiffs.
    Mr. Churchwell. Every year that passes, you see a new 
organization coming up trying to stand for voting rights. We 
have seen quite a growth in that area. That sector is growing 
quite immensely. The question that we need to answer here, 
though, is from the Federal perspective, was it more efficient 
with the data that we have today----
    Mr. Butterfield. You are talking about the efficient use of 
Federal resources. I am talking about the efficient use of 
private resources. Would you stipulate that a Section 2 voting 
rights claim in today's dollars costs more than a million 
dollars to fully litigate through the trial division? Would you 
stipulate to that?
    Mr. Churchwell. Sure.
    Mr. Butterfield. It is very expensive and if a jurisdiction 
were to move a polling site away from a minority community, 
move it into an unfriendly community, making it more difficult 
and more challenging for minority citizens to vote at that 
polling site, that is a change that would be covered by Section 
5. It would have to be approved before it happened. But without 
Section 5, the only remedy you are suggesting for that 
community would be to file a million dollar Section 2 lawsuit.
    Don't you think we need some type of oversight from the 
Federal Government to make sure that local jurisdictions do not 
engage in very subtle acts of voter suppression?
    Mr. Churchwell. Well, Congressman, I think we would find 
multiple levels of agreement if we were to consider all of the 
data. Particularly, you raise the issue of polling place 
relocations. The DOJ record for the lifetime of preclearance 
for every jurisdiction that was under Section 4 at one point or 
another, polling place relocations were the largest category of 
submissions to the Justice Department for approval. And more 
that 99.6 percent of all those submissions before Justice were 
approved.
    If you look at it from purely an enforcement question of 
are we dedicating our resources in the hottest places 
necessary, most of the preclearance issues that were ever 
considered were polling place issues----
    Mr. Butterfield. Annexations----
    Mr. Churchwell [continuing]. And they were approved.
    Mr. Butterfield. Annexations are included in preclearance.
    Mr. Churchwell. Category 2.
    Mr. Butterfield. And that is a big deal in my State. I 
don't know about Florida, but I can tell you, DOJ prevented 
many annexations that would have otherwise submerged African-
American communities.
    Mr. Churchwell. And that annexation issue, also tracking 
less than 1 percent of all objections. We are talking about a 
large volume of submissions before Justice Department that, if 
you look at the record, it looks like DOJ was rubber-stamping 
99 percent of all of these submissions to them. The question I 
would ask all of you----
    Mr. Butterfield. But, sir, I have had 30 years or more of 
involvement with the voting section of the Department of 
Justice, and those men and women who comprise the voting 
section were world-class litigators. The Legal Defense Fund and 
the other civil rights groups have been world-class litigators. 
And it has not been a waste of resources.
    Have there been Section 2 claims in Florida since the 
Shelby County decision? Since June of 2013, any Section 2 
cases?
    Mr. Churchwell. Not from the Obama or the Trump department.
    Mr. Butterfield. No, private plaintiffs, private 
plaintiffs. Have there been any private plaintiffs who have 
sued under Section 2 since Shelby County?
    Mr. Churchwell. I believe we have heard testimony to that 
effect, yes.
    Mr. Butterfield. And are you personally aware of any?
    Mr. Churchwell. Yes, over the minority language issues.
    Mr. Butterfield. Have any of those Section 2 claims been 
successful?
    Mr. Churchwell. It is my understanding the litigation is 
ongoing.
    Mr. Butterfield. And do you know the millions of dollars 
that are being expended every day to try to get those cases 
resolved?
    Mr. Churchwell. My question is why didn't the Obama Justice 
Department----
    Mr. Butterfield. No, my question is to you, Mr. Churchwell, 
and not you to this panel.
    I yield back, Madam Chairwoman.
    Chairwoman Fudge. Mr. Loudermilk, you are recognized for 5 
minutes.
    Mr. Loudermilk. Well, thank you, Madam Chairwoman. I 
appreciate that.
    We have heard a lot of testimony on a lot of different 
issues, and, clearly, there has been voter irregularities here 
in Florida, as there is across the Nation, because we are human 
and we do err. The question is, structurally or in the lack of 
oversight, are these intentional? Are they for human error, as 
we have already had someone on the previous panel suggest that 
70 percent of what they have seen is because of human error?
    More importantly, of those that are questionable that they 
could be intentional, what is the best way of addressing those 
issues? And as we had also heard, that even here in Florida, 
communities are different.
    And so, as I said earlier, I am encouraged that there are 
actually--the State is taking action to correct some of these 
on a bipartisan basis.
    Something else that has resonated with me is the people of 
Florida have voted to restore rights to felons who have served 
their sentence. And the only reason I bring this up is this is 
very important, because this Presidential administration and 
Republicans in Congress have led the effort on judicial reform. 
We have to decide, as a people, who are we afraid of versus who 
we are mad at.
    We are going and taking those that we were just mad at for 
one reason or another, and we are allowing them--we are 
reducing their sentences, we are putting them back into 
society, and we have to decide. It is something that the 
communities, each community, each State is deciding, as Florida 
has taken it up, of what rights do we restore. Do we restore 
all their Constitutional rights once they have served their 
sentence? And I think that is something that I applaud the 
State of Florida for doing.
    However, a lot of what we are talking about are things that 
appear to be mostly at the State level that States are 
rectifying. We are a democratic republic, and the will of the 
people under the Constitution is served.
    However, the purpose of these hearings are dealing with the 
Voting Rights Act. And so I appreciate, Mr. Churchwell, you 
focusing in on that issue. And I have a couple questions for 
you.
    Since the Supreme Court 2013 holding in Shelby County, what 
have the enforcement trends of the Voting Rights Sections 2 and 
3 been like, and what do those trends tell us?
    Mr. Churchwell. Well, there has been a drop-off, and, like 
I mentioned in my prior testimony, that drop-off began before 
Shelby. And the issue that we would raise here is that we began 
relying a bit too much on preclearance despite the outdated 
coverage map. And the data from the Justice Department proves 
that, and it proves it well before 2013.
    Because let's get some context here. A lot of people hear 
about preclearance and they realize that the Justice Department 
had essentially an administrative veto over so many State and 
local jurisdictions. And you think, well, there must have been 
a very good reason for that. And in the 1960s there was, and 
the Nation acted out of an abundance of caution to that effect.
    But when you look at the data itself, it appears, based on 
the enforcement, that too much was being reviewed by the 
Federal Government; resources were being redirected. And 
instead of the Justice Department being able to chase down that 
bad city council district map or any other kind of 
qualification for voter registration, they were instead more 
likely sweating the relocation of the polling place from the 
Methodist church to the Baptist church next-door.
    Because let me just give you some numbers. In the lifetime 
of preclearance, 129,000 times DOJ was asked to review a 
polling place change. They objected to only 83 of those for the 
entire lifetime.
    Congressman, you mentioned annexation before. 113,500 
annexation schemes; only 1 percent of those were objected to.
    Precinct boundary changes was the third-largest category: 
73,000 precinct changes reviewed over the lifetime of 
preclearance; 0.08 percent of those were objected to.
    So the more important question here is, was preclearance 
focusing on the correct amount of issues to review? And was the 
map up to date over the years? And whenever you are showing 99 
percent approval rates, we have to essentially recheck our nets 
and figure out if we are focusing our Federal efforts in the 
appropriate areas.
    Mr. Loudermilk. Okay. I appreciate that.
    As we probably don't have time to get into the other 
questions and I know that we want to stay on track here, I will 
submit the remaining questions for the record, and I yield back 
my time.
    [The information follows:]
    Chairwoman Fudge. Thank you very much.
    Mr. Aguilar.
    Mr. Aguilar. Thank you, Madam Chairwoman.
    I, too, like my colleagues, applaud the residents of 
Florida for voting overwhelmingly in favor of restoring voting 
rights to individuals so they are not judged, as the mayor said 
in the previous panel, by their worst day.
    The question for Florida policymakers that is of interest 
to this panel is: Why undo that mandate that the voters have 
given, which they did on Friday?
    You know, we agree, as my colleague mentioned, that there 
are irregularities at times, but based on the testimony and 
based on what we are hearing, those irregularities are looking 
a lot like systemic voter suppression efforts.
    My question for Mr. Cartagena and Ms. Browne Dianis is, you 
know, specific to the purge rate here in Florida. According to 
the Brennan Center for Justice, the rate of voter purges 10 
years ago was 0.2 percent. Between December of 2016 and 
September 2018, a similar 2-year window, that voter purge rate 
was 7 percent.
    Can you describe the litigation that has taken place over 
the past few years? And can you tell us why the purge rate has 
increased so significantly over the past decade?
    Mr. Cartagena. Thank you, Representative Aguilar.
    I am going to yield more of the details to my colleague, 
Judith Browne Dianis, on the details of the actual purge. Both 
of our organizations litigated Arcia v. Detzner, which is one 
of the challenges to the use of the alleged noncitizen purge 
that occurred in violation of the National Voter Registration 
Act. That went up to the 11th Circuit, and we won before the 
11th Circuit.
    Effectively, at that time, which is the purge before the 
2012 election, the State of Florida sought to systemically 
purge people for alleged nonvoting based on old databases that 
were not in effect, that could not even prove at the time of 
actual purge that people were not naturalized citizens. In 
fact, many of them were.
    But with respect to the issues of the 7 percent purge today 
versus 2 percent before, or less than 2 percent before, I will 
yield to Ms. Browne Dianis.
    Ms. Browne Dianis. Thank you.
    What we are seeing happening across the country and in 
Florida is a push to move more people off the rolls. This push 
is--you know, as we talk about the Justice Department Civil 
Rights Division Voting Rights Section, their work has shifted 
to suing States over purging, wanting to get them to purge. 
They are working hand-in-hand with their friends in the 
conservative legal community, including the Public Interest 
Legal Foundation, the American Civil Rights Union, and Judicial 
Watch, making sure that States, instead of increasing access to 
the ballot, making sure that they are taking people off the 
rolls.
    So, here in Florida, what we are seeing is that same kind 
of move, making sure they are being sued by organizations like 
Mr. Churchwell's to make sure that they are taking people off 
the rolls.
    Our problem with that--and, yes, to Congressman 
Loudermilk's point--is that the National Voter Registration Act 
has provisions in it for list maintenance. The problem is that 
the State of Florida has shown time and time again that they 
cannot be trusted to do it in a way that does not 
disproportionately impact people of color.
    We believe that that is intentional in the way that it is 
being done, using flawed databases, inaccurate information, 
going after so-called noncitizens, like they did in the case 
that we did with Latino Justice, finding that, actually, there 
were people that are citizens, there were veterans that were on 
that list, and that they didn't care about the fact that they 
were going to sweep up other people in what was an unlawful 
purge.
    Mr. Aguilar. Mr. Cartagena----
    Mr. Churchwell. Chairwoman Fudge, may I respond to that 
very briefly?
    Chairwoman Fudge. You may not.
    Mr. Aguilar. This is my time, Mr. Churchwell. Apologies.
    Mr. Cartagena, can you talk specifically about the barriers 
that Puerto Ricans face with respect to language assistance and 
voting here in Florida?
    Mr. Cartagena. No question. Thank you very much for that 
question.
    So, effectively, you are looking at a population that, on 
the island of Puerto Rico, is roughly about 65 percent Spanish 
dominance. Everything happens in Spanish in Puerto Rico; all 
government proceedings happen in Spanish in Puerto Rico. A 
very, very active elective in Puerto Rico. Turnout in Puerto 
Rico elections is upwards of 80 percent--things that are almost 
unheard of within the 50 States of the United States.
    That is due to a lot of factors, including the fact that in 
Puerto Rico elections are held only--consolidated all the 
elections on one cycle, and it is a national holiday. It is a 
holiday where people vote and take it seriously.
    To take it seriously in the United States, the same 
population that moves to the United States expects and only 
asks that Federal law be complied with. Federal law, as I 
mentioned before, since 1965, clearly states--and this is 
Section 4(e)--that the right to vote for Puerto Ricans educated 
there cannot be conditioned on knowledge of the English 
language.
    So the first barriers are, you looking at a population that 
is coming both to Florida and to other States throughout the 
South, the deep South, as a way to evacuate from very, very 
onerous conditions on the island of Puerto Rico, and they are 
finding themselves, when they are finally able to exercise a 
decision about what is happening locally--do they want to say 
``yes'' to that local official who helped them with housing? Do 
they want to say ``no'' or use their vote against a local 
official who didn't help them with enrolling their children 
into public schools? That is the kind of simple civic 
engagement that many people in this country cherish. They find 
themselves unable to effectively and fully file an effective 
vote because of mostly issues around language assistance.
    Mr. Aguilar. Thank you so much. I appreciate it.
    Mr. Cartagena. Sure.
    Mr. Aguilar. My time has expired, Madam Chairwoman.
    Chairwoman Fudge. Thank you.
    Mr. Hastings.
    Mr. Hastings. Thank you very much, Madam Chairwoman.
    Ms. Wilkerson, what I am about to say is just self-serving. 
I was the second male member of the League of Women Voters here 
in Broward County.
    Ms. Wilkerson. [Inaudible.]
    Mr. Hastings. Right. That is great. Nowadays. But in those 
days, Don and I were the only two. It was kind of interesting.
    Ms. Dianis, I can't say enough about thanking you for the 
extraordinary work that the Advancement Project does and has 
been doing. And it is good to learn about Mr. Cartagena's work 
as well.
    Mr. Churchwell, you mentioned that there are emerging 
threats. And in your written testimony, you raised that several 
times. Can you tell me, what exactly are these emerging 
threats?
    Mr. Churchwell. I would be happy to share a most recent 
one. There is a case called Davis v. Guam, Guam being in the 
Ninth Circuit. In essence, a retired military officer living on 
Guam wished to register to vote in time for a plebiscite 
election to determine what was Guam's status going to be with 
the United States going forward. He was told: No, you cannot 
register to vote because of your Tribal lineage. You have none. 
You do not have Chamorro blood. You cannot participate in this 
election.
    It is examples like that--and I will grant you that there 
are not many of these. But here we are today where we need to 
remind ourselves that the Voting Rights Act was meant to 
protect everyone. And even the United States, even in the Ninth 
Circuit, a case like that can be generated and find for Mr. 
Davis at the Ninth Circuit.
    Mr. Hastings. Let me ask you, do you consider it 
discriminatory--and you have said that in Section 2 almost any 
discriminatory hurdle can be overcome.
    How would Section 2 help a young man that has been in 
prison for 6 years, and he gets out of jail and he becomes, as 
my colleagues have said, a good citizen, and he wants to 
register to vote now, and his fines are $10,000. And we don't 
even know an assessment of the court costs, because there was 
no record of the court costs.
    How does Section 2 help him overcome that? And is that a 
discriminatory hurdle?
    Mr. Churchwell. It is a question that looks like it is 
going to be asked very soon within the Federal district courts. 
We have heard discussions about that at this panel and in the 
news media. So that question will be answered.
    But let me add to that to say, look, the Florida 
legislature had three jobs to do. It could not just say, 
``Okay, the amendment passed. Supervisor of Elections, you all 
figure it out from there.'' Because you would have had 
supervisors acting differently in different counties.
    Mr. Hastings. Uh-huh.
    Mr. Churchwell. They had three jobs to do. First was answer 
the question of what does it take to become square with the 
House. Now we have the Senate and the House reporting out a 
bill. Some people like it, some people don't, but that process 
is ongoing.
    Job number two was to determine what were we talking about 
in the amendment language when we talked about violent and 
sexual crimes.
    And job number three was, to the Supervisors of Elections, 
what do they do in the actual paperwork, the handling of a 
voter registrant that might have a felony record behind him but 
wants to register to vote now.
    Mr. Hastings. Do you think the Florida legislature's 
actions last week have overcome all of those three matters?
    Mr. Churchwell. There is definitely a question hanging on 
that. However----
    Mr. Hastings. You got that right.
    Mr. Churchwell [continuing]. Two out of three jobs----
    Mr. Hastings. Let me reclaim my time.
    Listen, I am 82 years old, and I am a native Floridian, and 
I am here to tell you, I have lived in a preclearance 
situation. If it had not been for Section 5, G.K. Butterfield 
and Marcia Fudge and I would not be sitting here in the United 
States Congress. Let's just start with that.
    Third, please know that discrimination continues. You are 
looking at a person that filed the original school 
desegregation case in this county where we are right now. And 
just----
    Mr. Churchwell. Thank you for your service.
    Mr. Hastings. And just to listen to the kinds of things 
that are coming out from my Florida legislature is extremely 
disturbing because they are, in fact, discriminatory.
    We have self-executing constitutional amendments in this 
State, three of them, and there is nothing that suggests that 
this could not have been the case.
    The voters spoke, and the legislature spoke against the 
voters. And you tell them I said so.
    I yield back my time.
    Chairwoman Fudge. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chairwoman.
    I would like to ask unanimous consent to enter into the 
record an article that specifically describes the horrendous 
voter suppression, point by point, over the last number of 
years, particularly beginning with the term of former Governor 
Rick Scott.
    Chairwoman Fudge. Without objection, so ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Wasserman Schultz. Thank you.
    I would also like to just address Mr. Churchwell, not with 
a question but a statement.
    The Florida legislature had one job, not three, and the one 
job was for Florida to follow the amendment for plain language 
and not read between the lines, overinterpret it, and simply 
allow what the amendment required, which was self-execution, to 
ensure that voters' will was implemented and allow people who 
were former felons who had completed their sentences to 
register to vote.
    Mr. Hastings. Hear, hear.
    Ms. Wasserman Schultz. Period. One job, not three.
    That having been said, Ms. Browne Dianis, I want to switch 
to a different subject that we haven't really touched on. 
Florida is one of more than 40 States that requires citizens to 
register well in advance of election day, before many voters 
become truly engaged.
    And research shows that allowing same-day registration 
would increase turnout, especially among younger residents--and 
as the parent of twin almost-20-year-olds, that is important to 
me--and that same-day registration can be executed, implemented 
without favoring one party over another.
    So what would Florida election officials need to do to 
offer this basic, beneficial voting option?
    Ms. Browne Dianis. Thank you, Congresswoman.
    This is a simple thing. There are other States that do it. 
And, actually, one of the things that is also important about 
Florida is that, especially, like, in a place like south 
Florida, where you have people who are moving across county 
lines, et cetera, this kind of ease of being able to carry your 
registration across county lines, being able to register again 
is very important. Transient populations tend to be low-income 
families, people of color, and college students who would 
benefit from same-day registration.
    In order do it, the State would have to infuse some money 
into supervisors of elections. That is one of our problems that 
continues happen after HAVA, is that supervisors of elections 
aren't given enough money to run efficient elections. And so 
that is what would have to happen. And I am sure that the 
supervisors of elections here in the State could execute that 
quickly and without any problems.
    Ms. Wasserman Schultz. Thank you very much.
    And, Ms. Wilkerson, first of all, thank you so much for the 
work that the League of Women Voters has done over decades and 
decades in this State. Because you have been among the most 
successful and unsung civil rights organizations that has filed 
successful lawsuit after successful lawsuit to ensure that the 
franchise was maximized.
    And with that having been said, that includes our 
constitutional amendments that allowed for fair districts and 
that eliminated political gerrymandering.
    So, with that integral role, you know, we are at a point 
where now we have gone in Florida from in 2012, 
preredistricting, with Florida being a 50/50 State, we had a 
congressional delegation with 25 Members of Congress, 19 
Republicans and 6 Democrats; post-fairer-districts, today, with 
the State Supreme Court having to intervene and impose a map 
that was compliant with the voters' intent and the 
constitutional amendments, we have 14 Republicans and 13 
Democrats in our congressional delegation, which is far more 
aligned with the voters repeatedly expressing their will 
election after election.
    What is the League's position on the current cases in the 
Supreme Court of the United States that are asking the Court to 
rule that political gerrymandering is a violation of the United 
States Constitution?
    And, as an organization, are you prioritizing nationally 
the elimination of gerrymandering and fight at the State level 
and at the Federal level to ensure that districts are fairly 
drawn and do not favor incumbents or political parties, as we 
do not here?
    Ms. Wilkerson. Yes, we are organized all over the United 
States, and I am very concerned about gerrymandering. Right 
here in Florida, we are concerned about the census not being 
adequately funded, because that will decide how many extra 
people we have in Congress or not. And as particularly swing 
States, it is very important. It took us several years to get 
our maps adopted by the Supreme Court because of the 
gerrymandering pattern that Florida had, and I suspect we will 
be back in court again after the census.
    I think all of these negative and suppression methods that 
our people are using are really why people don't go to the 
polls. They don't think that their vote makes a difference 
anymore, particularly when we look at the younger generation. 
It is really sad, you know? The schools don't all even mandate 
civics education anymore; they don't know how government works.
    And I know, when we go and register voters and we say, you 
know, is there a good place for us to go where we can get some 
more voters registered, we go there and we will get a dismal 
turnout. We will go to another church, like an after-church or 
something, and, ``We are here to register to vote,'' ``Well, it 
isn't going to make any difference because I haven't voted the 
last couple of years because nobody seems to care about my 
concerns.'' And I think that is a fundamental thing that we 
should all be very worried about.
    We have had to improve our original democracy with a lot of 
compromises in that first democracy that we had. And if we stop 
or negate the things like the civil rights things, having 
marched in Montgomery myself, I think it is disgraceful. To 
think that we don't--if the maps no longer applied, you just 
simply draw new maps. That law should have been extended and 
protected every voter.
    It is a disgrace that we are not looking at the democratic 
things. Politics has become such a game, rather than, are we--
this Amendment 4 in Florida is the perfect example. Bills were 
introduced in many sessions; nothing happened. Finally, Charlie 
Crist, when he was Governor, did by executive order kind of 
funnel out the people who would get their rights restored 
immediately, and then they would look at the more complicated 
cases.
    But the clemency board that you had to go to, and you had 
to go to Tallahassee to be heard----
    Chairwoman Fudge. Ms. Wilkerson, we need you to wrap up, 
please.
    Ms. Wilkerson. Okay.
    They only met four times a year for 3 hours. The backlog 
meant you had a 28-year wait right now to get to the clemency 
board.
    Ms. Wasserman Schultz. Thank you.
    Thank you, Madam Chair, for your indulgence.
    Chairwoman Fudge. Thank you very much.
    Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chair.
    Thanks to the witnesses for being here.
    Ms. Dianis, I am just a little confused from a lot of the 
things I have heard today, so maybe you could just help cut 
right through that confusion.
    Did Amendment 4 need any additional action by the Florida 
legislature?
    Ms. Browne Dianis. No. It was a self-executing amendment.
    Mr. Deutch. And do you believe that the new fee requirement 
is discriminatory?
    Ms. Browne Dianis. Yes.
    Mr. Deutch. And why?
    Ms. Browne Dianis. Because it will disproportionately 
impact black and brown would-be voters.
    Mr. Deutch. And do we know the impact of the fee payment 
requirement on people with prior convictions? How many people 
are there in that situation, and what is the typical amount 
owed?
    Ms. Browne Dianis. Well, we actually don't know all the 
numbers yet. I can tell you, when I was canvassing, I met many 
people who could not vote and who had restitution. I met one 
black man who had restitution of $250,000. And he said to me, I 
will never be able to vote if they don't allow us to vote 
without restitution. So, to us, this is nothing more than a 
poll tax.
    Mr. Deutch. Ms. Dianis, do you think fees throughout the 
justice system help to criminalize poverty?
    Ms. Browne Dianis. Yes. This has been----
    Mr. Deutch. Why?
    Ms. Browne Dianis [continuing]. Shown across the country, 
that what we see is that people can never get out of the system 
if they can't pay.
    And there have been lawsuits brought across the country--in 
Missouri, we are involved in one--where there are challenges to 
the fact that we are creating debtors' prisons. And that has 
happened in the State of Florida, and it has not yet been 
challenged, but look for that to happen.
    Mr. Deutch. I appreciate that.
    Mr. Cartagena----
    Ms. Browne Dianis. That is a threat, a real one.
    Mr. Deutch. Thank you.
    Mr. Cartagena, I want to follow up on an issue that Mr. 
Loudermilk raised earlier. That is this specter of noncitizen 
voting.
    On May 11, 2017, President Trump established a Presidential 
Advisory Commission on Voting Integrity, which was ostensibly 
to find and root out voter fraud. Did the President's 
commission ever find widespread systematic voter fraud?
    Mr. Cartagena. No. Quite the contrary. Nothing was found, 
and the President disbanded the commission very, very silently 
compared to the way it was, you know, publicly addressed when 
it was first created.
    Both my organization, the NAACP Legal Defense Fund, the 
Mexican-American Legal Defense Fund, and others sued the 
establishment of the commission, but the President himself just 
took it off the table.
    Mr. Deutch. And then, if you go back to 2012, in Florida, 
before the 2012 elections, there were headlines that warned of 
200,000 noncitizens who were registered to vote. That was the 
impetus behind then-Governor Scott's effort to purge the voter 
rolls.
    Do you recall what happened in that case?
    Mr. Cartagena. Sure. The headline said 200,000. The actual 
list was 2,700. And when we scoured that list, we, again, with 
the Advancement Project and others here in Florida, we learned 
of many people who were naturalized citizens post the first 
check of the database.
    The databases that were used were SAVE database--this is 
the one from Department of Homeland Security--and also the 
Department of Highway Safety and Motor Vehicles here in 
Florida, their local database.
    The problem was very, very simple. The databases may have 
discovered something that may have happened 10 to 12 years 
earlier. At that point, Juan Cartagena wasn't a naturalized 
citizen, so he said, yes, I either can't get a license or I 
cannot serve on a jury. They used 12-year-old databases to 
determine in 2012 who can actually vote.
    Mr. Deutch. And so, in fact, 0.0425 percent was the 
percentage that was affected.
    It was that same time that Congressman Hastings and I 
learned of a World War II veteran who was told that he would 
not be able to vote because he was caught up in that voter 
purge.
    Just in my remaining time--let me just make one more 
observation about that. Mr. Cartagena, we heard earlier that 
there are ways that we can try to address this. I sent probably 
half a dozen letters to Governor Scott encouraging him to 
participate in these multi-State databases like ERIC, which we 
heard in this legislative session, again, no funding to do 
that. Is that right?
    Mr. Cartagena. There are ways to try to address it, but one 
of the most important things we have to recognize is that 
naturalization proceedings happen every day in this country. 
Thousands of people, you know, pledge their allegiance to the 
United States and become citizens. But by the time that data 
enters any kind of database, there is a lag time. And to assume 
that we have an accurate database on who becomes naturalized in 
this country is fallacy.
    Mr. Deutch. And in my final seconds, Ms. Wilkerson, when I 
think about the basic question, do our elections work, do they 
produce a government that is of, by, and for the people, is the 
will of the people driving Washington, I frequently come back 
to the same issue, and that issue is money in politics and the 
need to overturn Citizens United to diminish the influence of 
money in politics.
    Thank you for the work that you have done in advocating for 
that position. What is so problematic about all of this money 
that floods into our campaigns?
    Ms. Wilkerson. Well, I am sympathetic that the campaign 
costs have so increased. That is part of the problem. And until 
you get some limits on what people can spend, you will still 
get this enormous infusion of money, whether it comes in with 
the first hand or the second hand behind them. But campaigns 
have just gotten so expensive, we have to look at another 
structure.
    And we also have to make sure that qualified people are 
proud to run an election and to run as a campaign. And, very 
often, those are not the people who can have the multimillion-
dollar donors.
    Mr. Deutch. Thank you.
    Thank you very much.
    Chairwoman Fudge. Thank you.
    Ms. Wilson.
    Ms. Wilson. Thank you, Madam Chairwoman.
    Judith, I have worked with you through the years with the 
Haitian community, and we have seen in Florida the length of 
the ballots. Because every time we vote, there are tons of 
amendments added to the ballot. And our ballots in Dade County 
and maybe in Broward or some other counties are in three 
languages, which means it is triple the length.
    This is intimidating for educated people, people with 
Ph.Ds. The people who are new citizens and people who are in 
challenged communities, like the community that I represent--
has it ever been brought to your organization that we should 
move towards voting online or an increase in absentee balloting 
since we have this easy way to absentee ballot?
    Also, we have a constituent in the audience who approached 
me about the absentee ballots and the matching of signatures. 
And when are the signatures considered out of date, old, or do 
they notify you that the signature--it is time for you to come 
in and sign again, for these people who have been absentee 
balloting for a long time?
    But every election we have, the Republicans out-absentee-
ballot us by thousands, and it is just--it is unnecessary. So 
what kind of suggestion do you have for the people who don't 
take advantage of that?
    Ms. Browne Dianis. Yes. Thank you, Congresswoman Wilson. 
So, a few things that I think can be done.
    One is, part of the problem in Florida with the long 
ballots--and the reason it takes so long is that, in those 
particular polling places where we see those long lines, we 
don't have enough machines, we don't have enough poll workers.
    If you start to look at the way that those machines and 
poll workers are distributed, it is discriminatory. We brought 
a lawsuit around that in 2008 in Virginia and found this in 
other places, where the machines are not distributed equally--
--
    Ms. Wilson. Do you think it would be wise for these people 
not to even go to the machines----
    Ms. Browne Dianis. Well, I think----
    Ms. Wilson [continuing]. Just vote from home?
    Ms. Browne Dianis. Yes.
    Ms. Wilson. And we had a little slogan when I ran for 
Congress. That is when they were trying to put in the ID law. 
And it was, ``No ID? Vote absentee.'' And 90 percent of the 
people who voted for me voted absentee----
    Ms. Browne Dianis. Right. Well, I would----
    Ms. Wilson [continuing]. And I won.
    Ms. Browne Dianis. Yeap. I would say a few things. One is 
more machines. Two is extending early voting opportunities. 
Three is increasing absentee ballots.
    And the reason I say the other two is because there are a 
lot of people who still don't trust the absentee balloting 
process. So being able to have all three of those things will 
help alleviate the long lines that people see in those 
particular precincts.
    Ms. Wilson. And to all of you, something we need to just 
make note of is the elephant in the room is Russia. And what 
kind of impact do any of you think that Russia had on this 
election?
    We had one, we know--it has been rumored--I don't know if 
it was rumor or a fact--that in a county in Florida the 
Russians were able to crack into their election system. It has 
been rumored that that county is Broward. No one has proven 
that yet, but the Governor has set up a meeting with the FBI to 
determine which county it was, how far they got, and what kind 
of impact that made on the State.
    I am not sure if he wants to really find out the answer, 
because it might impact what his results were because he won by 
such a slim margin.
    But tell us what you feel about Russia.
    Mr. Cartagena. Let me start.
    It deserves an entire congressional inquiry as well. The 
fact that there have been clear representations by members of 
this administration that the Russian meddling is actively 
involved now for the 2020 election is such a red flag, such a 
dangerous red flag, that I would urge you all to just undertake 
a complete investigation of that now, what is going on with 
respect to the 2020 elections.
    I cannot believe that any Federal Government, and this 
Administration especially, would just minimize the threat, as 
if it didn't happen before and as if it may not happen again, 
when every indicator seems to be that there is meddling going 
on now in advance of the 2020 election.
    Ms. Wilson. For the record.
    I yield back. Thank you.
    Chairwoman Fudge. Thank you so much.
    Mr. Churchwell, you wanted to respond to Mr. Aguilar. I 
will give you a moment to do that, sir.
    Mr. Churchwell. Sure.
    Rewind the tape here back to the argument that Public 
Interest Legal Foundation and other groups were essentially 
signal-calling to the Trump DOJ to purge voter rolls around the 
country.
    Number one, anyone who uses the word ``purge'' probably 
hasn't spent much time with a voter registrar, because that is 
a very easy way to get slapped, mentioning that word in front 
of them. They do not like that word.
    But beyond that, the most recent DOJ action as it relates 
to list maintenance was resolved in Connecticut. And the 
settlement there required that the State of Connecticut's Vital 
Statistics Bureau, the keeper of the death records, the death 
notices, that information be transmitted to voter registrars, 
so when the State knew for a fact that someone died and they 
could match that identity to a voter registration record, they 
could handle it accordingly.
    That is the most recent case that has been resolved by the 
Justice Department. Similar issues have come and gone in 
Kentucky.
    What we are talking about here is meat-and-potatoes issues, 
making sure that when someone dies the voter registrar knows it 
because we have a government record to prove it, or if someone 
moves, that same information is transmitted. We still cannot 
take that for granted today.
    Chairwoman Fudge. Thank you very much.
    I would ask each of you, if there is one thing that you 
want us to take away today, of all the things that you have 
said, would you please tell me what that is?
    We will start with Ms. Dianis and we will go straight down.
    Ms. Browne Dianis. The one thing I would want you to take 
away is that just because we see voter turnout going up for 
black and brown voters does not mean that discriminatory voting 
practices and policies are not in place.
    In fact, if it makes it harder for certain people to vote, 
that, in and of itself, is a violation of the Voting Rights 
Act. So we should not get caught in the idea that turnout means 
that we have overcome.
    Chairwoman Fudge. Thank you.
    Ms. Wilkerson.
    Ms. Wilkerson. The fundamental right to vote is so precious 
to our country. It is how we preserve a democracy, by letting 
everyone have their say and select their choice of candidates 
and issues. We need to preserve that. It should be a priority 
of Congress.
    Chairwoman Fudge. Thank you.
    Mr. Cartagena.
    Mr. Cartagena. Everything that Congress has said in the 
area of voting demonstrates that voting is a right. The problem 
is, of course, that in many States in this country it is 
treated as a privilege that you earn, and they have to re-earn 
it and re-earn it again. The will of Congress is being thwarted 
every time that happens. I thank you for having this hearing 
and urge you to have many more.
    Chairwoman Fudge. Thank you.
    Mr. Loudermilk, any closing thoughts?
    Mr. Loudermilk. I just want to thank you, Madam Chairwoman, 
for inviting me to be part of this hearing, and all the other 
of my colleagues that are here.
    And I appreciate all the panelists taking their time to 
bring their ideas and their passion to the table for this 
important issue.
    Chairwoman Fudge. Thank you.
    And I want to thank our witnesses; to thank the Members who 
have spent their morning with us today to ask questions that 
are extremely important to this process; thank Broward County 
Governmental Center for hosting us this morning; to the people 
of Florida who have joined us today; certainly our staff; those 
who are live-streaming.
    If you didn't know, this has been live-streamed. I probably 
should have said that earlier. I probably should have said 
something, because even the ones in the audience, sometimes it 
is on you, sometimes it is on us.
    I want to thank you all.
    I just want to end with these closing thoughts. You know, 
as I listen to these hearings, hearing after hearing. I keep 
saying to myself: The more things change, the more they stay 
the same.
    If citizenship is really the measure, then I wonder 
whether, in fact, we should have ever taken the rights of 
prisoners away. They are still citizens, whether they are 
convicted or in prison or not. So if citizenship is the 
measure, they should never have lost their right to vote. So I 
applaud the people of Florida for making sure that they give it 
back.
    But I also want to make clear that Chief Justice Roberts 
did not deny that discrimination exists. It was quite the 
opposite. He says, I know it does. However, I cannot continue 
to say to certain of these 14 States that you are going to be 
punished because the data that we are using is old.
    What they said was, we want contemporaneous data so that we 
can be sure that we are being fair. Maybe it is not just States 
that are already in preclearance. Maybe it is Ohio, where I 
live, which clearly should be in preclearance. Maybe it is 
Wisconsin or Pennsylvania. But what he said was: You give us 
new data so that Congress can come up with a new formula.
    What we are doing across this country is deciding how we 
create the record that satisfies the decision in Shelby and 
gives the data appropriately to the Congress of the United 
States. That was what the decision was. It wasn't to say we 
don't need preclearance anymore. It was just to say that we 
can't continue to use data that is 25 years old.
    And what I do know is that, if Section 5 had been in place 
in Brownsville, Texas, where we started, people who have a 
difficulty with the language would not be forced to vote in 
police stations, places where they were intimidated. Or in 
North Dakota, on an Indian reservation, they wouldn't be forced 
to vote in chicken coops. Or they would not, with their high 
poverty rates, be forced to go out and buy a driver's license 
and they don't drive, because that driver's license may have 
been a carton of milk or eggs for their family, because some of 
those particular reservations have unemployment rates of almost 
60 percent.
    What have we done to the citizens of this Nation, people 
that we have made a promise to? Well, we have made it more 
difficult for them to do the very thing that this country 
stands for, which is to be a part of our democracy.
    And so I can't imagine--I just have this one question for 
you, Mr. Churchwell. You seem like a very nice young man. Did 
you live through the 1960s?
    Mr. Churchwell. No, ma'am.
    Chairwoman Fudge. The 1970s?
    Mr. Churchwell. No, ma'am.
    Chairwoman Fudge. Okay. I did. And what I know--no, no, I 
mean, it is serious, because I don't think that he can 
understand the passion with which we believe that this country 
needs to live up to its promise.
    You know, I lived at a time when people that looked like me 
could not vote. I lived through it. And I know it is difficult 
for you in your wildest imagination to believe that this 
country has done something wrong, but it has.
    And what makes us a great country is our ability to repair 
our faults, and that is what we are doing today.
    I thank you all, and I say that this Subcommittee stands 
adjourned without objection.
    [Whereupon, at 12:59 p.m., the Subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
